<html>
<title> - THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, 
REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE 
                          DISTRICT OF COLUMBIA

=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2009

                               __________

                           Serial No. 111-30

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
54-385                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ------ ------
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             BRIAN P. BILBRAY, California
ELIJAH E. CUMMINGS, Maryland         ------ ------
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2009...............................     1
Statement of:
    Fulwood, Isaac, Jr., chairman, U.S. Parole Commission; 
      Adrienne Poteat, Acting Director, Court Services and 
      Offender Supervision Agency; Laura Hankins, special 
      counsel, D.C. Office of the Public Defender; Jesse Janetta, 
      the Urban Institute; Martin F. Horn, distinguished 
      lecturer, John Jay College of Criminal Justice; and Charles 
      Thorton, Returning Citizens United.........................     9
        Fulwood, Isaac, Jr.......................................     9
        Hankins, Laura...........................................    38
        Horn, Martin F...........................................    74
        Janetta, Jesse...........................................    59
        Poteat, Adrienne.........................................    27
        Thorton, Charles.........................................    85
    Parker, James, D.C. Code offender under USPC/CSOSA 
      Jurisdiction; and Samuel Green, D.C. Code offender under 
      USPC/CSOSA Jurisdiction....................................   109
        Green, Samuel............................................   111
        Parker, James............................................   109
Letters, statements, etc., submitted for the record by:
    Fulwood, Isaac, Jr., chairman, U.S. Parole Commission, 
      prepared statement of......................................    11
    Hankins, Laura, special counsel, D.C. Office of the Public 
      Defender, prepared statement of............................    41
    Horn, Martin F., distinguished lecturer, John Jay College of 
      Criminal Justice, prepared statement of....................    76
    Janetta, Jesse, the Urban Institute, prepared statement of...    61
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     6
    Poteat, Adrienne, Acting Director, Court Services and 
      Offender Supervision Agency, prepared statement of.........    29


THE LOCAL ROLE OF THE U.S. PAROLE COMMISSION: INCREASING PUBLIC SAFETY, 
REDUCING RECIDIVISM, AND USING ALTERNATIVES TO RE-INCARCERATION IN THE 
                          DISTRICT OF COLUMBIA

                              ----------                              


                      TUESDAY, SEPTEMBER 22, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch and Norton.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk/legislative assistant; and Daniel Zeidman, 
deputy clerk/legislative assistant; Howie Denis, minority 
senior counsel; Mitchell Kominsky, minority counsel; and Alex 
Cooper, minority professional staff member.
    Mr. Lynch. The subcommittee is now in order. The 
Subcommittee on Federal Workforce, Postal Service, and the 
District of Columbia hearing has now come to order. I welcome 
all the Republican and Democratic members of the subcommittee, 
witnesses, and all those of you in attendance.
    As you are all aware, the purpose of this afternoon's 
hearing is to examine a host of issues related to offender 
reintegration, recidivism, and overall public safety in the 
Nation's Capital.
    The Chair, the ranking member, and the subcommittee members 
will each have 5 minutes to make an opening statement. All 
Members will have 3 days to submit statements for the record. 
In evidence of the absence of several of our Members, I will 
allow Members to submit any statements for the record during 
the course of this hearing and for, as I said, 3 days beyond.
    Ladies and gentlemen, again, I thank you for your 
attendance here at the subcommittee's fourth D.C.-related 
Oversight Committee hearing entitled, ``The Local Role of the 
U.S. Parole Commission: Increasing Public Safety, Reducing 
Recidivism, and Using Alternatives to Re-Incarceration in the 
District of Columbia.'' Today's hearing gives the subcommittee 
the opportunity to examine the impact of the U.S. Parole 
Commission and other related Federal agencies on public safety 
in the District of Columbia.
    Currently the District of Columbia is the only jurisdiction 
where the control over aspects of its local criminal code 
offenders is determined by the policies and practices of 
Federal agencies such as the Parole Commission or the Court 
Services and Offender Supervision Agency. The National Capital 
Revitalization and Self-Government Improvement Act of 1997 
[Revitalization Act], transferred the responsibility for and 
the cost of certain State criminal justice functions such as 
house parole and the supervised release of adult felons 
convicted under the D.C. criminal code from the District of 
Columbia to the Federal Government.
    While considerable progress has been made over the past 10 
years since the enactment of the Revitalization Act, the 
District of Columbia continues to confront the host of 
challenges regarding the implementation of effective felon 
supervision, reentry, and revocation systems and practices. 
With nearly 6,500 D.C. Code felons in the custody of the 
Federal Bureau of Prisons and over 15,000 offenders on 
supervised release with the CSOSA, it is critical that the 
subcommittee conduct the requisite oversight to ensure that the 
hybrid mix of Federal and local criminal justice 
responsibilities in the District of Columbia is being carried 
out as seamlessly, consistently, and effectively as possible.
    This is the context in which today's hearing has been 
called. I thank our witnesses for agreeing to join us in 
conducting such a dialog.
    Today's hearing is also intended to address other related 
policy challenges such as the difficulty of keeping D.C. Code 
felons who are housed in Bureau of Prisons facilities miles 
away from the District of Columbia connected to their families 
and communities, the use of graduated sanctions versus 
automatic revocation, and the pending agenda of the USPC given 
its newly appointed leadership.
    I would like to again thank my colleague, Congresswoman 
Eleanor Holmes Norton for her tireless effort in this policy 
area and for recommending today's hearing topic. Again, I thank 
all of those in attendance this afternoon. I look forward to 
hearing the testimony of our witnesses.
    This concludes my opening statement.
    In the absence of the ranking member, Mr. Chaffetz, I now 
recognize Ms. Eleanor Holmes Norton of the District of Columbia 
for 5 minutes.
    [The prepared statement of Hon. Stephen F. Lynch follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.001
    
    [GRAPHIC] [TIFF OMITTED] 54385.002
    
    Ms. Norton. Thank you very much, Chairman Lynch. With your 
permission, I will simply summarize my opening statement and 
ask that the remainder be placed in the record.
    All the thanks are due to you, Chairman Lynch, for 
scheduling this hearing on the U.S. Parole Commission, the 
first since President Barack Obama appointed former D.C. police 
chief, Isaac Fulwood, Junior Chair of the U.S. Parole 
Commission.
    The unprecedented local responsibility of the U.S. Parole 
Commission gives this agency important responsibility for 
public safety in the District of Columbia today. In 2009, 
approximately 6 percent of the crimes have been committed thus 
far by offenders while on parole or supervised release, 
accounting for 4 percent of violent arrests, 3 percent of 
weapons arrests, and 6 percent of drug arrests.
    While the Parole Commission is a Federal agency created and 
funded by the Congress since 1930, today it fits squarely 
within the subcommittee's jurisdiction under the 1997 National 
Capital Revitalization and Self-Government Improvement Act 
which transferred certain function to the Federal Government. 
And of course it is squarely within our Federal jurisdiction 
over Federal parolees.
    This transfer of the function and the cost from the 
District of Columbia was made during the District's most 
serious financial crisis. It means that the Bureau of Prisons 
now has jurisdiction over 9,500 D.C. Code felons. All of them 
will 1 day pass through the U.S. Parole Commission. Many of 
them are doing so now from the U.S. Bureau of Prisons in 
facilities located across the United States.
    I will be particularly interested to hear about, if I may 
say, new approaches, not just existing approaches but new 
approaches, that can meet the Commission's unique local 
responsibilities to the District of Columbia to increase public 
safety and reduce recidivism.
    I believe what we hear today will be instructive to 
jurisdictions all across the United States, Mr. Chairman, 
because jurisdictions are releasing people from prison because 
they can't afford to hold them. In the good times they just 
took in everybody they could find who looked like he had 
committed a crime. Now they are putting people out on the 
streets without the kind of careful work that is being done by 
the U.S. Parole Commission and that is recommended by the 
experts that you have called before us.
    The serious changes in the economy today mean that today's 
hearing, while particularly important to the District of 
Columbia, needs to have the attention of the Nation. 
Incarceration and re-incarceration are very expensive and have 
very poor crime reduction records. Incarceration separates and 
strains families and communities with little crime or 
recidivism reduction to show for it.
    We are pleased to welcome all of today's witnesses. Mr. 
Chairman, I look forward as I know you do to their testimony.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] 54385.003

[GRAPHIC] [TIFF OMITTED] 54385.004

    Mr. Lynch. I thank the gentlelady.
    At this time I would like to welcome all of our witnesses 
to take their assigned seats as we begin this portion of our 
hearing. Is Mr. Cornell Jones here? I know we have changed the 
order of the witnesses.
    Welcome. It is committee policy that all witness to provide 
testimony are to be sworn in. Could I ask you to please rise 
and raise your right hands?
    [Witnesses sworn.]
    Mr. Lynch. Let the record indicate that all of the 
witnesses have responded in the affirmative.
    Your entire printed statements are already included in the 
hearing record. Let me begin by introducing panel one.
    Mr. Isaac Fulwood is chairman of the U.S. Parole 
Commission. On November 20, 2004, Isaac Fulwood was appointed 
as a U.S. Parole Commissioner by President George W. Bush. He 
served 29 years as member of the Metropolitan Police Department 
and in 1989 became the 25th chief of police.
    Ms. Adrienne Poteat was named the Acting Director for the 
Court Services and Offender Supervision Agency in July 2008. In 
this position, Ms. Poteat oversees a Federal agency that was 
created by the D.C. Revitalization Act of 1997.
    Ms. Laura Hankins is special counsel to the director at the 
Public Defender Service of the District of Columbia. She 
represents PDS in commenting on legislation before the D.C. 
City Council, the District of Columbia Sentencing Commission, 
and on the committee responsible for drafting the District 
patent criminal jury instructions. Her management 
responsibilities include supervising the Defender Services 
Office, the PDS division responsible for determining the 
eligibility of defendant to receive court appointed lawyers and 
for initially assigning lawyers to criminal cases.
    Mr. Jesse Janetta is a research associate for the Urban 
Institute. He has research and evaluation experience addressing 
issues related to prisoner reentry, parole, probation 
supervision, and risk prediction. Prior to coming to the Urban 
Institute, Mr. Janetta was the research specialist at the 
Center for Evidence-Based Corrections at the University of 
California at Irvine.
    Mr. Martin Horn is a distinguished lecturer in the 
Department of Law and Police Science at John Jay College. He 
was appointed by Mayor Michael Bloomberg to serve as 
commissioner of the New York City Department of Probation 
effective January 1, 2002. One year later, Mayor Bloomberg 
appointed him to serve as commissioner of the New York City 
Department of Corrections. He held both positions 
simultaneously until coming to John Jay College in September 
2009.
    I understand now that Mr. Charles Thorton will be appearing 
in place of Mr. Cornell Jones. Mr. Cornell Jones is the 
chairman of the Returning Citizens United, Inc., a D.C.-based 
advocacy group for the formerly incarcerated. Under Mr. Jones 
leadership, Returning Citizens United has made great strides in 
redirecting many at risk youth and adult men from self-
destructive behavior to positive and self-directed behaviors.
    Again, I welcome all the witnesses. I invite Mr. Fulwood to 
offer a summation of your statement for 5 minutes.

    STATEMENTS OF ISAAC FULWOOD, JR., CHAIRMAN, U.S. PAROLE 
 COMMISSION; ADRIENNE POTEAT, ACTING DIRECTOR, COURT SERVICES 
    AND OFFENDER SUPERVISION AGENCY; LAURA HANKINS, SPECIAL 
COUNSEL, D.C. OFFICE OF THE PUBLIC DEFENDER; JESSE JANETTA, THE 
 URBAN INSTITUTE; MARTIN F. HORN, DISTINGUISHED LECTURER, JOHN 
JAY COLLEGE OF CRIMINAL JUSTICE; AND CHARLES THORTON, RETURNING 
                        CITIZENS UNITED

                STATEMENT OF ISAAC FULWOOD, JR.

    Mr. Fulwood. First let me say good afternoon. Thank you to 
Chairman Lynch for inviting us to the hearing. I especially 
thank Congresswoman Norton, who is my Congresswoman, for 
inviting me and taking an interest in the U.S. Parole 
Commission.
    The Parole Commission today, as mandated by Congress, 
carries out the following duties: making parole and revocation 
decisions for parole-eligible Federal offenders, making parole 
and revocation decisions for parole-eligible D.C. Code 
offenders, setting and enforcing the conditions of supervised 
release for District of Columbia Code offenders, and making 
release decisions for U.S. citizens convicted of crimes in 
another country who wish or elect to return to the United 
States for the service of sentence.
    Most of the Commission's day to day work involves the D.C. 
Code offenders. As of the end of fiscal year 2008, about 70 
percent or 9,236 of the persons under the Commission's 
jurisdiction of 12,696 were D.C. Code offenders. Of the 1,842 
revocation hearings conducted by the Commission during fiscal 
year 2008, 87 percent of them or 1,608 were D.C. Code 
offenders. In the 12 months ending August 31, 2009, roughly 90 
percent of the 2,020 warrants issued by the Commission were for 
D.C. Code offenders.
    The Parole Commission is a public safety agency charged by 
Federal and District common law with the duties of enforcing 
public safety. The Commission keeps in mind for all of its 
decisions that the public safety is paramount.
    For our work involving parolee decisionmaking, the 
Commission uses guidelines that look at the severity of the 
crime for which the person has been sentenced, the likelihood 
that the offender will commit another crime if released, prison 
conduct, and prison program performance. The Commission is 
presently involved in redefining the instrument to improve its 
predictive powers. In other words, we have done a study.
    The area of the Commission's work that is growing is 
setting conditions of release and conditions of supervision. 
The Commission works closely with the Court Services and 
Offender Supervision Agency to ensure that offenders under 
supervision are carefully monitored and are given an 
opportunity to acquire skills and receive treatment that will 
enable them to become good citizens. CSOSA has established a 
Reentry and Sanctions Center to provide assessment and reentry 
programing for offenders, as well as residential sanctions for 
offenders who violate release conditions.
    The Commission fully supports the program by ordering as a 
condition of release from prison the offenders identified by 
CSOSA as meeting the programs be assessed by the Reentry and 
Sanctions Center. The Commission also imposes on such offenders 
a condition of supervision that requires participation in 
treatment programs recommended as a result of the Reentry and 
Sanctions Center assessment.
    CSOSA reports regularly to the Commission on each offender 
it supervises for the Commission. If it becomes necessary to 
remove someone from the community, CSOSA will ask the 
Commission to issue a warrant.
    We would like to see people under supervision succeed and 
become good citizens. If persons under supervision have become 
a risk to the public, we will issue a warrant. To avoid having 
to issue a warrant by intervening when the behavior of someone 
under supervision starts to deteriorate, CSOSA and the 
Commission have established a reprimand sanction program.
    When CSOSA becomes concerned that an offender's behavior is 
becoming questionable, a reprimand sanction hearing is 
scheduled. A commissioner conducts an internal and informal 
hearing with the offender. A representative of the Public 
Defender Service and the supervising officer discuss the 
matter. An improvement plan is worked out for the offender with 
the goal of motivating offenders to change whatever behavior 
has caused concern before that behavior requires the Commission 
to take an action.
    It has been my experience both as chief of police in 
Washington, DC, and as a commissioner that a major problem 
faced by returning offenders is drugs and alcohol. Addiction 
makes it difficult for returning offenders to be law-abiding 
and to stay out of trouble. The Commission is involved in two 
programs designed to address addiction problems in the District 
of Columbia offender population. The programs offer inpatient 
addiction treatment in a secure environment of offenders 
arrested on the Commission warrant charging relatively minor 
violations of conditions of supervision.
    Mr. Lynch. Mr. Fulwood.
    Mr. Fulwood. Yes?
    Mr. Lynch. Sir, you are over by a couple of minutes. Could 
I ask you to just sum up? I think a lot of the information you 
want to provide will be through the question and answer. I 
appreciate the comprehensiveness of your statement.
    Mr. Fulwood. OK, let me give you the two programs. The two 
programs that we talked about are the Residential Secure 
Substance Abuse Program, which is run by the D.C. Department of 
Corrections. It is a program that is designed for a 90 day 
period of behavioral modification to deal with the problem of 
addiction. The second program is the Secure Residential 
Treatment Program, which is run by CSOSA along with the U.S. 
Parole Commission. That is good for 180 days to try to change 
the offender's behavior. Those are the two programs.
    When you think about the reprimand sanction hearing, 
another program designed specifically to address not putting 
people back through incarceration, that is trying to figure out 
the best method to get them to be motivated to do a better job.
    [The prepared statement of Mr. Fulwood follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.005
    
    [GRAPHIC] [TIFF OMITTED] 54385.006
    
    [GRAPHIC] [TIFF OMITTED] 54385.007
    
    [GRAPHIC] [TIFF OMITTED] 54385.008
    
    [GRAPHIC] [TIFF OMITTED] 54385.009
    
    [GRAPHIC] [TIFF OMITTED] 54385.010
    
    [GRAPHIC] [TIFF OMITTED] 54385.011
    
    [GRAPHIC] [TIFF OMITTED] 54385.012
    
    [GRAPHIC] [TIFF OMITTED] 54385.013
    
    [GRAPHIC] [TIFF OMITTED] 54385.014
    
    [GRAPHIC] [TIFF OMITTED] 54385.015
    
    [GRAPHIC] [TIFF OMITTED] 54385.016
    
    [GRAPHIC] [TIFF OMITTED] 54385.017
    
    [GRAPHIC] [TIFF OMITTED] 54385.018
    
    [GRAPHIC] [TIFF OMITTED] 54385.019
    
    [GRAPHIC] [TIFF OMITTED] 54385.020
    
    Mr. Lynch. Thank you very much.
    Ms. Poteat, you are now recognized for 5 minutes for an 
opening statement.

                  STATEMENT OF ADRIENNE POTEAT

    Ms. Poteat. Chairman Lynch, Congresswoman Norton, and other 
distinguished members of the committee, thank you for this 
opportunity to testify. I am pleased to appear before you today 
on behalf of the Court Services and Offender Supervision Agency 
to discuss the work of CSOSA and its connection with the U.S. 
Parole Commission.
    CSOSA is a Federal law enforcement agency with a unique 
local mission. The Agency supervises approximately 16,000 men 
and women on probation, parole, or supervised release in the 
District of Columbia. Two thirds of these offenders are 
probationers who have gone to prison and are accountable to the 
D.C. Superior Court rather than the U.S. Parole Commission. 
Most of the remaining third, about 6,000 offenders, are on 
parole or supervised release from a term of incarceration in 
the Federal Bureau of Prisons and are accountable to the USPC.
    Our offenders face many challenges. Thirty percent have a 
history of violent crime. Sixty-four percent have a history of 
substance abuse. Thirteen percent have a formally diagnosed 
mental illness. Many others have undiagnosed mental health 
conditions. Nearly 40 percent do not possess a high school 
diploma or GED. Only 47 percent of our population is employed. 
On an average day, 800 offenders reside in D.C. homeless 
shelters or have housing situations that are considered 
unstable. Stable housing and employment are critical factors 
affecting the likelihood that an offender will commit a new 
crime, violate the terms of their release, and ultimately 
whether or not they will be revoked to incarceration.
    We partner with numerous local and Federal agencies and 
community-based organizations to access the education, 
training, employment, family services, mental health and 
substance abuse treatment, and other services that our clients 
need. Yet, while we recognize the critical importance of these 
services, CSOSA's critical mission is public safety. Our main 
strategy is in support of the public safety mission for close 
supervision.
    Through a system of graduated sanctions, CSOSA imposes 
increasingly restrictive penalties on offenders for violating 
their release conditions. Sanctions can involve increased 
office visits, drug testing, GPS monitoring, or residential 
placement in halfway back or the 102 bed Reentry and Sanctions 
Center [RSC], that we opened in 2006.
    Our Office of Research and Evaluation is currently working 
with the U.S. Parole Commission on the development of a new 
violation sanctions matrix and the integration of that tool 
with CSOSA's own graduated sanction matrix. The alignment of 
these tools will provide uniformity in the response to 
supervision violations by parolees and supervised releasees in 
the future.
    In May 2006, in conjunction with the USPC, we created an 
alternative sanction option called the reprimand sanction 
hearing for offenders on parole and supervised release. This 
program permits the USPC a face to face opportunity to address 
an offender's noncompliant behavior as a last step before a 
formal parole revocation hearing. From May 2006 to July 2009, 
259 hearings were conducted. Participating offenders have shown 
a higher level of compliance following these hearings.
    USPC and CSOSA are in daily contact regarding the 
adjustment of the 6,000 offenders under their jurisdiction and 
our supervision. Routine communications include both 
recommendations to reward compliant behavior as well as 
placement on inactive supervision. We also do the submission of 
AVRs on offenders that are noncompliant.
    Just yesterday CSOSA launched the new Secure Residential 
Treatment Program [SRTP], which will serve as an alternative 
placement for eligible D.C. Code offenders on parole or 
supervised release who face revocation for technical violations 
including substance abuse and, in some cases, new criminal 
violations. We are partnering in this endeavor with the USPC, 
the Department of Corrections, and the Public Defender Service.
    The initial pilot program will consist of a 180 day 
treatment regimen including and involving 32 offenders. It is 
scheduled to run until March 2010. During this pilot 
demonstration, CSOSA will fund and operate the Treatment 
Intervention Center.
    The USPC has been an integral partner in our efforts to 
establish the SRTP program and to implement the pilot 
demonstration.
    We look forward to the continuation of our close 
collaboration with the U.S. Parole Commission as well as our 
local and Federal partners as we work together to enhance 
public safety while reducing the rate of incarceration as one 
of our alternate goals.
    I appreciate the opportunity to appear before you today. I 
welcome any questions. Thank you very much.
    [The prepared statement of Ms. Poteat follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.021
    
    [GRAPHIC] [TIFF OMITTED] 54385.022
    
    [GRAPHIC] [TIFF OMITTED] 54385.023
    
    [GRAPHIC] [TIFF OMITTED] 54385.024
    
    [GRAPHIC] [TIFF OMITTED] 54385.025
    
    [GRAPHIC] [TIFF OMITTED] 54385.026
    
    [GRAPHIC] [TIFF OMITTED] 54385.027
    
    [GRAPHIC] [TIFF OMITTED] 54385.028
    
    [GRAPHIC] [TIFF OMITTED] 54385.029
    
    Mr. Lynch. Thank you very much.
    Ms. Hankins, you are now recognized for 5 minutes for an 
opening statement.

                   STATEMENT OF LAURA HANKINS

    Ms. Hankins. Thank you. Good afternoon. I am Laura Hankins, 
special counsel to the director of the Public Defender Service 
for the District of Columbia. Thank you for the invitation to 
testify today on the local role of the U.S. Parole Commission.
    The Public Defender Service has represented over 90 percent 
of D.C. Code offenders who have faced revocation of parole or 
supervised release since the Parole Commission replaced the 
D.C. Board of Parole. Thus we have a unique perspective on and 
a strong interest in the Commission's increasingly local role.
    Reducing recidivism increases public safety. One way to 
reduce recidivism is to develop and appropriately use 
alternatives to re-incarceration. PDS commends the Commission 
and CSOSA on the development and increasing use of two drug 
treatment programs and on the continuing work of the reprimand 
sanction hearings. My understanding is that those hearings are 
held approximately 3 days a month. We are very gratified to 
hear the attention that they are getting at this hearing and 
hope that signals that the Commission will hold those hearings 
more often.
    It should be noted, however, that the need to develop 
incarceration alternatives and to fine tune the systems 
concerning who should get such an alternative and who instead 
should be re-incarcerated is becoming increasingly acute as the 
population over whom the Commission has authority changes. As a 
result of the Revitalization Act, parole was abolished in the 
District effective August 5, 2000 and replaced by supervised 
release and revocation terms.
    Generally speaking, terms of supervised release are shorter 
than the amount of time an offender is on parole. The 
revocation term, the amount of time for which an offender can 
be sent back to prison if he is revoked, is also shorter. This 
determinate sentence supervised release scheme gives the Parole 
Commission and CSOSA an opportunity to concentrate their 
resources on those persons most likely to re-offend, that is 
persons recently released from prison. In the long run, this 
scheme should mean fewer people on supervision at any given 
time, particularly when compared with having to supervise 
people who are on parole for decades or for life.
    But it also means that the Commission needs to examine how 
it budgets the supervision and revocation time with which it 
has to work. The question of whether it makes sense, for 
example, to send someone back to prison for 12 months for 
having committed a low level technical violation like testing 
positive for marijuana use is more critical to answer when the 
offender can only be put back on supervised release for 2 more 
years and if he violates again can only be sent back to prison 
for at most 12 more months.
    At a hearing on the Commission held by this subcommittee 
last year, the director of PDS was afforded the privilege of 
testifying. At that time, PDS noted a number of issues that we 
hoped to see the Commission address. Two issues in particular 
deserve mention today. One, the salient factor risk assessment 
tool needed to be redesigned in order to account for factors 
that correlate to recidivism and in order to be relevant to the 
population most often being assessed by the tool, offenders 
facing revocation, not offenders seeking a parole grant. Two, 
the corresponding guidelines that direct the sanction for a 
parolee upon finding a violation needed to be recalibrated to 
shorten the re-incarceration periods and allow the 
reinstatement of low risk supervisees for low severity 
violations.
    There might be reasons for the Commission not to address 
these issues, though some specific fixes were recommended by an 
expert the Commission helped to hire. And since the Commission 
voted to adopt those recommendations, it is difficult to 
imagine what those reasons might be. But even if one assumes 
that the status quo provides good reason not to follow through 
on the recommendations, the climate change facing the 
Commission in the form of offenders in a very different 
sentencing system should give the Commission serious pause.
    If D.C. offenders continue under the authority of the 
Commission, 1 day there will be no more parole grant hearings, 
the very type of hearing for which the salient factor tool was 
designed. Instead, the Commission's work will essentially be 
all revocation hearings. But using the salient factor score at 
revocation hearings is like forcing a square peg into a round 
hole at every hearing. It is impossible for a parolee or a 
supervisee facing revocation to get a perfect score. Therefore 
it is impossible under the corresponding guidelines to get a 
recommendation of no re-incarceration.
    In addition to changing some of its systems, how the 
Commission exercises its discretion should also be examined. 
PDS noted last year that while the Commission has the 
discretion to allow supervisees to remain in the community 
pending their final revocation hearings, it essentially never 
exercises that discretion and opts instead to detain at the 
jail virtually all persons facing revocation. This is no small 
issue. Last week, roughly 600 people, approximately 20 percent 
of the D.C. jail's population, were there for parole 
revocations. While according to Commission procedures the time 
between an arrest on a violation and the final revocation 
decision should not be more than 86 days, the current wait is 
closer to 4 months.
    Even putting aside the justness of exercising its 
discretion to allow some parolees and supervisees to remain in 
the community, particularly those who are employed and have not 
lost contact with their supervising officer, the climate change 
facing the Commission should push it toward using its 
discretion to release people. Supervisees get credit for time 
spent in jail. With shorter overall terms of supervision and 
revocation, reflexively using jail time is essentially wasting 
the resource of supervision and revocation time. Using up 4 
months in jail on a violation that is ultimately not supported 
or which results in reinstatement on parole means 4 fewer 
months of supporting that offender's reentry and supervising 
his behavior to increase public safety and 4 fewer months as a 
sanction should he later violate his supervised release 
conditions.
    The Public Defender Service appreciates the opportunity for 
treatment and success on supervision provided by the 
Commission's new drug programs and continues to applaud 
Chairman Fulwood on reprimand sanction hearings as he has 
championed them. The climate change facing the Commission, 
however, calls for a new look at how revocation proceedings and 
sanctions are carried out.
    I appreciate the opportunity to present this testimony to 
the subcommittee and would be pleased to work with the Members 
in their ongoing consideration of these issues. Thank you.
    [The prepared statement of Ms. Hankins follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.030
    
    [GRAPHIC] [TIFF OMITTED] 54385.031
    
    [GRAPHIC] [TIFF OMITTED] 54385.032
    
    [GRAPHIC] [TIFF OMITTED] 54385.033
    
    [GRAPHIC] [TIFF OMITTED] 54385.034
    
    [GRAPHIC] [TIFF OMITTED] 54385.035
    
    [GRAPHIC] [TIFF OMITTED] 54385.036
    
    [GRAPHIC] [TIFF OMITTED] 54385.037
    
    [GRAPHIC] [TIFF OMITTED] 54385.038
    
    [GRAPHIC] [TIFF OMITTED] 54385.039
    
    [GRAPHIC] [TIFF OMITTED] 54385.040
    
    [GRAPHIC] [TIFF OMITTED] 54385.041
    
    [GRAPHIC] [TIFF OMITTED] 54385.042
    
    [GRAPHIC] [TIFF OMITTED] 54385.043
    
    [GRAPHIC] [TIFF OMITTED] 54385.044
    
    [GRAPHIC] [TIFF OMITTED] 54385.045
    
    [GRAPHIC] [TIFF OMITTED] 54385.046
    
    [GRAPHIC] [TIFF OMITTED] 54385.047
    
    Mr. Lynch. Thank you, Ms. Hankins.
    Mr. Janetta, you are now recognized for an opening 
statement for 5 minutes.

                   STATEMENT OF JESSE JANETTA

    Mr. Janetta. Thank you very much to Chairman Lynch, 
Congresswoman Norton, and the committee for the invitation and 
opportunity to share with you some of what we know about what 
constitutes best practice in parole supervision to the end of 
reducing recidivism and facilitating successful community 
reintegration.
    The parole field at this point in time is undergoing a 
tremendous amount of flux. It is coming out of a period during 
which there was a very heavy reliance on surveillance and 
monitoring which, while foundational tools of community 
supervision, have repeatedly been shown by themselves and in 
the absence of other interventions to have little or no impact 
on recidivism. And there has been an increasing focus across 
the country on approaches to parole and parole supervision that 
seek to change the behavior of parolees.
    So at this time I would like to highlight four broad 
principles from the research and expert and practitioner 
consensus that should guide best practices in parole in any 
jurisdiction.
    The first is that there should be clear accountability both 
for those conducting parole and for the parolees who are being 
supervised. There should be accountability for the parolers, 
the supervisors, in terms of making a clear focus on recidivism 
reduction as a goal, setting targets, and measuring performance 
relative to that. In parolees, it should be tailored their 
conditions and specific to that individual's circumstances so 
that all of their conditions of parole are tied to factors that 
put them at risk for recidivism and that are in the whole 
realistic for them to abide by.
    The second principle is that it is important to 
strategically allocate limited parole resources. In terms of 
people, focus on moderate to high risk offenders. In terms of 
time, focus on the critical period immediately after release 
when the risk of recidivism and other behaviors such as a 
return to substance abuse are highest. In terms of place, 
structure supervision around the communities and neighborhoods 
where the highest proportion of parolees return and often where 
the greatest risk factors for recidivism are present.
    The third principle, which takes place at the case 
management level or in the relationship between the parole 
officer and the parolee, is to build supervision around 
individualized supervision plans that are informed by validated 
risk and needs assessment information. Involve the parolees in 
the work of setting their goals so that you can increase their 
buy-in and their commitment to what, after all, is their 
behavior change plan. Reaches out to also engage their informal 
social support networks, their friends, families, and 
employers, the people who will continue to be in their lives 
and must support the maintenance of their behavior change long 
after the formal period of supervision has ended.
    The fourth and final principle is to build into the way 
that parole and parole supervision are conducted both a rewards 
and a sanctions structure. The rewards structure should 
recognize and reward successes when they occur, based on 
research that indicates that rewards and incentives are much 
more powerful in terms of changing people's behaviors than the 
threat of sanctions. But also there needs to be a sanctions 
policy that recognizes that parole violations are going to 
occur; that they need to be responded to in a problem solving 
way; that is graduated, as several of the members of this panel 
have already mentioned; and that reserves re-incarceration for 
cases where other options have been exhausted or where there is 
a pressing need to do so.
    With those four principles in mind, I would like to make 
two concluding observations.
    The first is that in this work of successfully facilitating 
reintegration through parole supervision, partnerships are 
absolutely necessary. There must be broad partnerships 
incorporating law enforcement, the community, and community 
providers. But also there needs to be a partnership between the 
three core entities, the paroling authority, the parole 
supervision authority, and institutional corrections, who 
really need to come together around a common goal and purpose 
for reintegrating people who are leaving prison. In many cases 
in jurisdictions across the country, this is not the case. They 
may collaborate not closely or sometimes work in ways that are 
at cross purposes.
    The final thing I would like to leave you with is that we 
can look around the country and we can see signs of promise for 
success in implementing these kinds of approaches to parole 
supervision. Look at the pilot proactive community supervision 
model in Maryland which realized success in reducing re-arrests 
and warrants for parole violations. Look also at some of the 
outcomes realized by States participating in the Transition 
from Prison to Community Initiative including Missouri, 
Georgia, and Michigan which have all seen improved outcomes in 
terms of recidivism and returns to prison.
    I think that the take-away message is that there is hope 
for these kinds of approaches to do the kind of work relative 
to recidivism reduction and community integration that we all 
want to see.
    Thank you very much.
    [The prepared statement of Mr. Janetta follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.048
    
    [GRAPHIC] [TIFF OMITTED] 54385.049
    
    [GRAPHIC] [TIFF OMITTED] 54385.050
    
    [GRAPHIC] [TIFF OMITTED] 54385.051
    
    [GRAPHIC] [TIFF OMITTED] 54385.052
    
    [GRAPHIC] [TIFF OMITTED] 54385.053
    
    [GRAPHIC] [TIFF OMITTED] 54385.054
    
    [GRAPHIC] [TIFF OMITTED] 54385.055
    
    [GRAPHIC] [TIFF OMITTED] 54385.056
    
    [GRAPHIC] [TIFF OMITTED] 54385.057
    
    [GRAPHIC] [TIFF OMITTED] 54385.058
    
    [GRAPHIC] [TIFF OMITTED] 54385.059
    
    [GRAPHIC] [TIFF OMITTED] 54385.060
    
    Mr. Lynch. Thank you, sir.
    Mr. Martin Horn, you are now recognized for 5 minutes.

                  STATEMENT OF MARTIN F. HORN

    Mr. Horn. Thank you, Mr. Chairman and Ms. Norton. I would 
like to talk about just a couple of things that I think will 
help us to fulfill the goal that Chairman Fulwood put forth, 
which is to see people succeed.
    It is my experience that all individuals leaving prison, as 
a group, have some statistical probability of success of 
failure. The challenge to us as a community is to increase the 
odds that they succeed. I think that the manner in which we 
release people matters. Another thing that I think matters 
greatly and that we need to talk about if we are interested in 
improving public safety, particularly as it relates to 
individuals released from Federal prisons back to the District, 
is that how they experience prison matters.
    Let me say first of all that I think there are three 
critical issues that must be addressed to promote success. 
Those are sobriety, employment, and housing.
    I believe that sobriety is a primary issue. It is a primary 
condition. I am not a teetotaler. I am not making a moral 
judgment. But I know this after 40 years, if an individual 
leaves prison or jail and starts getting high, they will not 
succeed. In order to promote sobriety, we must ensure that 
their experience in prison is an experience of sobriety, that 
our prisons and jails are drug-free, that while in prison and 
in jail individuals learn how to stay sober, and that upon 
release they are provided with connections to those agencies 
and organizations that can assist them in achieving sobriety.
    It is my understanding that CSOSA has available to it 
approximately $15 million for drug treatment. Nonetheless, it 
is further my understanding that this meets only approximately 
25 percent of the need among the persons under their 
supervision. It is further my understanding that while in the 
Bureau of Prisons approximately 40,000 individuals annually are 
afforded exposure to their drug and alcohol treatment programs. 
On any given day, there are only 100 D.C. Code violators 
enrolled in these programs.
    If we are serious about reducing crime committed by persons 
upon their release from prison, we have to ensure that they 
leave prison sober, that they know how to stay sober, and that 
we provide continuous access to treatment because recovery does 
not proceed in a straight line.
    With respect to employment, it is my understanding that 
approximately 40 percent of the D.C. Code violators who are 
released are released without a high school diploma. This makes 
the challenge of finding work even more difficult as they are 
entering a work force market where 80 percent of the work force 
in the District has high school diplomas. I think that we must 
question why, given that D.C. Code violators as I understand it 
have a rather lengthy stay in the Bureau of Prisons, we cannot 
get them educated while they are imprisoned.
    In today's world, in order to work one must have certain 
documentation. One cannot, as we all know, work without proof 
of citizenship or a legal permission to work and a social 
security number. Despite the best efforts of CSOSA through 
their VOTEE program, I believe it is called, nonetheless large 
numbers of offenders leave prison today without the documents 
necessary. It is unconscionable in today's day and age that 
individuals leave prison without the Social Security Card, 
Birth Certificate, or other documents that would make them 
legally eligible to begin working upon their release from 
prison.
    I think this should become a performance standard within 
the Bureau of Prisons. We should ask them to report on the 
number of persons leaving prison who leave with the requisite 
documents.
    Finally, with respect to housing, all of these issues are 
of course made more difficult by the great distance that D.C. 
Code violators are held from the District in Federal prisons. 
It makes obtaining a job all the more difficult. One way of 
ameliorating this problem is by releasing individuals back into 
the community through some form of halfway house.
    Despite the fact that roughly 25,000 individuals return to 
the District from Federal prisons, there are only three 
residential Reentry Centers, as I understand it, in the 
District. I believe that despite efforts to open more of them, 
the District like my own city of New York experiences what we 
refer to as NIMB, not in my backyard. No one wants it. It will 
take a great deal of political will by the political power 
structure of the District and the Congress to create the 
requisite number of halfway houses so that individuals leaving 
prison leave in a rational way.
    I also want to point out that the Anti-Drug Abuse Act of 
1988 imposes restrictions on the access to public housing and 
Section 8 vouchers by individuals who are convicted of drug 
crimes. This is something that does stand in the way of 
reentry. It complicates reentry. It is something that Congress 
should reconsider.
    I also want to finally say that data is critically 
important. I think that CSOSA has an excellent data collection 
and management capability. I think that we ought to adopt the 
idea that if you can't measure it, you can't manage it. We 
ought to look at how we manage our workloads and our caseloads, 
focus on the high risk cases, and pretty much leave the low 
risk cases to themselves.
    Thank you.
    [The prepared statement of Mr. Horn follows:]
    [GRAPHIC] [TIFF OMITTED] 54385.061
    
    [GRAPHIC] [TIFF OMITTED] 54385.062
    
    [GRAPHIC] [TIFF OMITTED] 54385.063
    
    [GRAPHIC] [TIFF OMITTED] 54385.064
    
    [GRAPHIC] [TIFF OMITTED] 54385.065
    
    [GRAPHIC] [TIFF OMITTED] 54385.066
    
    [GRAPHIC] [TIFF OMITTED] 54385.067
    
    [GRAPHIC] [TIFF OMITTED] 54385.068
    
    [GRAPHIC] [TIFF OMITTED] 54385.069
    
    Mr. Lynch. Thank you, sir.
    Mr. Thorton, you are now recognized for 5 minutes.

                  STATEMENT OF CHARLES THORTON

    Mr. Thorton. Thank you, Mr. Chairman and Ms. Norton, for 
giving us the opportunity to come and speak today. I must say I 
did not prepare a statement because this was a last minute 
opportunity.
    Mr. Lynch. I understand and I apologize for that.
    Mr. Thorton. It is fine.
    I will say that Returning Citizens United is a group of 
formerly incarcerated activists who have taken up the role of 
getting involved with how District residents reenter society 
and what we can do as activists and role models to take part in 
these conversations and be represented.
    I must say, I agree with a lot of the things that I have 
heard. I personally have worked with CSOSA and I think we are 
on the right track.
    Personally, I know sobriety directly relates to reentry. I 
don't think it is by mistake that I have had 19 years of 
sobriety and have been home and have been reentered into 
society successfully for 19 years. I know it goes hand in hand. 
One of the things that my experiences have taught me is that 
when you can deal with your addiction, you stand a much better 
chance of staying in society.
    Education is really big. Personally, as a direct result of 
education, I have been able to establish a life for myself. I 
am a home owner now and have been married for going on 10 
years.
    What we are trying to do is to be the example for other 
people coming home and reentering society. What we have seen 
happen is that a lot of times when these meetings take place 
and when people are called to hearings, a lot of times there 
are not returning citizens involved in these meetings. There 
are not formerly incarcerated people who are at the table when 
all of these decisions are being made. I want to emphasize that 
we are talking about successful formerly incarcerated 
individuals, individuals who have reentered society 
successfully and who are beyond the right path now.
    Personally, as I said, I am a home owner, a tax payer, and 
married. I am doing all the things that denote citizenship. Now 
I want to be a role model, having the avenue to do that and 
having the means to be able to be that role model.
    One thing I will say is that in any successful reentry, 
usually there is a hand that was reached out from a formerly 
incarcerated person to show another person the way. I think we 
have a unique ability to meet a person where they are as a 
result of having been there. What we at Returning Citizens 
United are trying to do is have that used. We are looking to be 
role models and mentors and to take part in the conversations 
that are being had.
    One of the things is that in the District of Columbia there 
is an Office that as of right now doesn't even have a Director 
whose goal and role it is, from my understanding, to look at 
reentry and recidivism and at how the District of Columbia is 
dealing with it. I think it is almost criminal that no one is 
even here representing the District of Columbia. Where are 
their beds? What are they doing? What is their strategy? What 
is this Office even doing to advance this conversation? What 
strategies are in place from that Office to assist in this 
conversation?
    One of the things, also, is that there are a lot of rules 
in the books right now that are just not being carried out. I 
am involved with several nonprofit organizations. I am a 
trainer with Sasha Bruce YouthBuild and I do trades training. I 
was just at a Section 3 meeting. There are rules in the books. 
A lot of development that is taking place in the District of 
Columbia is mandated to use District residents, returning 
citizens, but there is no oversight and that is not happening. 
Developers are continuously finding loopholes and ways to get 
around that happening. It is just an ongoing process.
    But again, as a successful person who has successfully 
reentered society, I know we have a role for this to take 
place. There is a role for us in this. That is why we are here 
today.
    Thank you.
    Mr. Lynch. Thank you, Mr. Thorton. I thank you for your 
testimony and for your example. I think you did pretty well 
without a prepared statement.
    Let me begin. I am going to yield myself 5 minutes for some 
questioning.
    I have had a fair amount of dealings with the houses of 
correction in the Boston area and in Massachusetts as well as 
our prison system. My own experience from talking with the 
inmates and visiting the prisons is that at least in the 
prisons that I have been to, only a handful, maybe four or 
five, the addiction rate to alcohol, cocaine, or heroin is 
probably, one or the other, close to 80 or 90 percent from the 
inmates that I have talked to. Ms. Poteat, Mr. Horn, Mr. 
Thorton, you have all hit on that. I know there are some 
differences here in the population and in the administration.
    Ms. Poteat, you mentioned the non-compliance hearings that 
you conduct. What are the most common violations that might 
have a person re-incarcerated? What do those violations usually 
consist of? Or are they so far across the map that you can't 
pin any one down?
    Ms. Poteat. No, the most common ones are new arrests, 
repeated drug violations with uses of various drugs, and loss 
of contact procedures where the offenders fail to report to 
their CSOs and are unaccountable for. We do even have a small 
magnitude of those that have violated the GPS process.
    Mr. Lynch. I am supposed to be managing four bills on the 
floor in about a minute.
    In my limited experience, sometimes the connection to the 
community and to other people who have gone through this 
process successfully, that is a very important element of 
success. If we are shipping people outside of the community and 
breaking that connection between the support systems, the 
families, and the parolee, I think that is counterproductive. 
How do we step back from that, take that into consideration, 
and try to give these parolees the best chance of success?
    Ms. Poteat. One of the things that we have done at CSOSA 
was when the Bureau of Prisons transferred a large portion of 
offenders to Rivers Correctional Facility, we took a tour and a 
visit down there with staff. We listened to some of the issues 
or concerns that the offenders raised. Part of those problems 
were they were away from their families, they were without 
resources, and there were a lack of programs and support 
systems.
    As a result of that, we elected to start a mentoring 
program where we would do video conferencing from our offices 
as well as going down there. We would take a pool of staff as 
well as employment vendors and other community resource 
activists to the prisons so that they could hear what these 
offenders were in need of prior to their return to the 
facility. In addition, we did some case management training 
onsite with their staff so that they recognized some of the 
challenges these men would face coming back to the District of 
Columbia with some of the resources that we have and some of 
the problems facing them with housing or employment.
    We tried to keep them in connection with CSOs so that there 
was communication for the offender to have a smooth transition 
once they come back to the District. So upon their return, we 
had some idea of what these men needed before they arrived. And 
we could hook them up with some of those resources prior to 
their arrival here.
    Now, we couldn't meet with all of them because there were 
some offenders at other sites in the Bureau of Prisons that 
were so far away that there was a lack of contact.
    Family support is very critical for these men's success. 
Some of them have been without support systems for so long, 
have burned bridges, and as a result need to reconnect with 
their families.
    The substance abuse history is a critical issue. We know 
many of them are abusers as well as just frequent users. They 
need to get in some type of substance abuse program. We 
recognized that we could not meet all of their needs. With 
those where we could do it onsite, we hooked them up with those 
services as well as outpatient or inpatient treatment. I talked 
about the family integration system.
    I will talk about employment. We had employers sit in the 
audience when we did video conferencing and talk to the 
offenders at Rivers. Some of them were interviewed right then 
in terms of the types of jobs they had, the credentials you 
needed in order to work at these particular jobs, and what they 
needed to do once they returned home.
    Those are just some of the things that are so important for 
these men and women.
    Clothing, some of them were without clothing so we worked 
very closely with our place for women as well as others for the 
men so that they had suitable clothing.
    It is recognized in one of the testimonies that we 
submitted that we have worked with the Department of Motor 
Vehicles. As was indicated, these men need driver licenses or 
some type of identification so that they can get employment. 
Along with that, we were able to get a non-driver 
identification so that they could come and get the 
identification so when they showed up to their employers they 
had some form at that time.
    Mr. Lynch. Thank you.
    My time having expired, I will now recognize the 
distinguished gentlelady from the District of Columbia, Ms. 
Eleanor Holmes Norton, who I will ask to take the Chair if you 
would. I have some questions that the committee wanted to have 
asked as well as your own.
    I am going to run over to the floor. I have four bills and 
hopefully I will be back as soon as possible. Thank you.
    Ms. Norton [presiding]. I thank all of you again for your 
testimony.
    I want to start with a question that goes directly to 
public safety. I think the residents of the District of 
Columbia would believe a 2008 District Court for the District 
of Columbia decision in Sellmon v. Reilly. The decision said 
that the Commission was not applying the correct standard in 
making parole decisions and that there were excessively long 
sentences. As a result, it is said that we could see the 
release of between 500 to 1,000 offenders, on pre-release, of 
course, within the next 18 months from the time the decision in 
2008. Most of these will have been incarcerated serving 
excessively long sentences for at least 15 years.
    I would like to know whether any of these inmates are now 
released from the 2008 decision. Have they had an effect upon 
either your workload or public safety? They would come 
immediately under CSOSA and, of course, get to the Commission 
only later so I have to ask both of you what the effect of this 
2008 District Court Federal decision has been. Is it a decision 
involving only those sentenced as Federal violators? Does it 
affect D.C. Code violators?
    Mr. Fulwood. It impacts D.C. Code violators primarily. The 
Sellmon decision requires us to use the D.C. Board of Parole 
guidelines that were developed in 1987. We have subsequently 
met with Gladys Mack and Walter Ridley to talk about the D.C. 
parole guidelines.
    There are about 500 offenders under that decision. We are 
in the process of reviewing those cases now. Our plan is to 
have it completed by January 31, 2010. There are people who are 
being released. As you know, because of the equitable street 
time statute, we are in the process of terminating people from 
supervision. It will have somewhat of an impact but we are 
still only talking about 500 people.
    Ms. Norton. So it is not 1,000 people? It is really at the 
out end only 500?
    Mr. Fulwood. Yes.
    Ms. Norton. Let me just ask you as a matter of the data, do 
people who have served longer sentences like this tend to be 
older when they get out? I guess this is for you as well as the 
Chief who has a long record in law enforcement. Do they tend to 
be more compliant than younger ones once they are under the 
supervision either of CSOSA or of the Parole Commission? Or 
does the fact that they were convicted of more serious crimes, 
perhaps, make them more difficult for you to handle when they 
all get out at one time?
    Mr. Fulwood. As you know, we commissioned a study done by 
Dr. Jim Austin. The study found that the D.C. population was 
serving twice the time of the national average.
    Ms. Norton. That was a matter of D.C. law?
    Mr. Fulwood. Yes, by the courts. The courts were sentencing 
people to longer sentences.
    Ms. Norton. Was this pre-Home Rule law or are they just 
kind of sailing off into the wind into this period as well?
    Mr. Fulwood. No. Not being a lawyer, it is a little bit of 
both. I think that what you had is that back in the 1980's when 
the crack cocaine epidemic came, you ended up with greater 
sentences because of the crack disparity. The Justice 
Department is looking at that now to try to figure out how to 
better manage this.
    Ms. Norton. We did that in the District as well, you are 
saying?
    Mr. Fulwood. Yes. So that was an issue. The study has shown 
that is an issue.
    But the study also points out something that was said by 
one of the panelists about people who are committing lesser 
offenses, that we need to do something about that group and not 
focus on that group. We need to focus on the group who are 
violent offenders, to take our resources and put them in there. 
We need to figure out what is the best way of managing this 
group. Ms. Poteat talked about some of the things that they are 
doing.
    As you know, you and I held a hearing with the people at 
Rivers. What we found is that there weren't programs. It is a 
privately owned facility for persons who were incarcerated. So 
we ended up with now the 500 out program at Rivers. We are 
still trying to get a solid unicorp program there now so that 
people have the opportunity when they come out to be 
successful.
    One of the things that we have at the Parole Commission, 80 
percent of all the people that we end up having revocation 
hearings for are there for technical violators. They are low 
level offenders. They either test positive, fail to take the 
test, or fail to report for supervision. Those are the three 
problems that we face.
    Ms. Norton. Let me stop you right there. Here is where my 
interest in public safety really wakes up. You know, Chief, 
what it means to have violent offenders out here because we 
don't get to them because we are getting to the dirty urine 
people now. Dirty urine people can lead to big problems if they 
have continuing drug problems so I am the last person to want 
to deprecate that. I think Mr. Horn or Mr. Janetta also 
testified about this distinction.
    Does CSOSA and then the Commission prioritize in any way 
offenders based on the offense to public safety of the offender 
given the large number of folks under supervision that you have 
out? I ask that particularly of the three of you at the table. 
Is there any priority so that you get to the ones who are 
likely to be out here and do violent crimes, I cited some 
statistics thus for 2009, or do you take them, excuse me, first 
come, first serve?
    Ms. Poteat. The answer to that question is yes. We have a 
risk screener that we apply to all of the offenders who are 
released. Therefore we can determine who is at the intensive 
level or who is at the minimum level. We supervise them 
accordingly.
    When I say that, the high risk offenders will have to 
report more. They will be engaged in the accountability tours 
with the Metropolitan Police Department with more frequent home 
visits and more frequent office visits. All of them are usually 
subjected to routine substance abuse testing. We will also 
probably put some of those on GPS to monitor their behavior 
based on their risk level.
    As they progress and do well, then their supervision level 
can be lessened.
    Ms. Norton. Let me ask about GPS. I am fascinated by that. 
Does GPS work so that when you put someone on GPS, most of the 
time is that technology effective, not effective, or highly 
effective? How would you rate it?
    Ms. Poteat. I would say that it is very effective. We have 
approximately 812 people on GPS right now. We have trained not 
only the Metropolitan Police Department but the Capital Police 
and the Park Police. They all have the ability to go in and 
look and monitor our GPS system. We have been able to assist 
the police department in solving crimes because we are able to 
detect if offenders are in close proximity to an offense that 
has transpired or on the scene.
    Ms. Norton. So do you have a backlog of warrants? I guess 
it would be actually CSOSA that issues the warrants. Do you 
have a backlog of warrants for offenders that are out on the 
street today?
    Ms. Poteat. Yes, we do have a backlog of warrants. However, 
we have been working very closely with the Parole Commission in 
addressing all of those warrants. And the Metropolitan Police 
Department has an initiative now where they want all of our 
warrants and all of the PSAs so that they can go out and pick 
some of them up as well.
    Ms. Norton. Let me ask you about the Superior Court Marshal 
and, to some extent, the District Court Marshal. Under the 
senatorial courtesy that the President has given me, I have now 
advertised to go before my commission first people who wish to 
be Superior Court Marshal, because that is a Federal 
appointment, and District Court Marshal.
    Now, I called in the Superior Court Marshal and I was, I 
must say, amazed to hear how we are doing. It is a position 
that hasn't been filled for a very long time, apparently. There 
are Marshals that come from all over the United States to fill 
in as needed because, after all, this is Federal and Marshals 
can fit in. It looks like an Office doing the best it can but 
without any leadership.
    If it is hooked up to what you do, I must ask you, how 
dependent are you on the Marshals to proceed once you have a 
warrant out for an offender?
    Ms. Poteat. We have had some positive results with the 
warrant units in both Superior and District Courts. We do have 
a staff member that is detailed over there and works in 
collaboration with the Marshal Service. Therefore some of our 
warrants that need to be picked up, they are able to look at 
and retrieve or act on immediately.
    Ms. Norton. Do you think the backlog has anything to do 
with understaffing at the Marshal Service of the Superior 
Court?
    Ms. Poteat. I really can't address that.
    Ms. Norton. So warrants are proceeding as you would expect, 
then?
    Ms. Poteat. No, there probably needs to be some 
improvement.
    Ms. Norton. Well, if it is not improvement in management 
and you can't speak to whether or not there are enough 
Marshals, all I can tell you, Ms. Poteat, is that I need some 
guidance. I am looking for somebody who can staff that office 
as it should be staffed. I have had complaints from people, 
from developers, that you can't get Marshals to go out even 
after the District is through with all of its processes. So I 
am very concerned with any spill-over.
    Continuing along with this violent offenders versus others, 
I am not sure I even know what I am talking about. I commend 
the Commission and the D.C. Criminal Justice Coordinating 
Council for the study you have commissioned that casts great 
doubt on this so called salient factor score used by the 
Commission to assess an ex-offender's likelihood of recidivism 
after release. The study, as I understand it, found at best a 
weak correlation to recidivism.
    I must ask you, particularly when this salient score, as I 
think you testified, Chairman Fulwood, is related to the 
guidelines, do you agree with the findings of this study? Are 
you continuing to use it? Do you intend to continue to use this 
salient factor score as it now has been used for years?
    Mr. Fulwood. What we have done is, this week, as a matter 
of fact, we are meeting with CSOSA and the study author to try 
to come up with the rules to govern how we use the study. We 
believe that the study is an important study. It will assist us 
in changing direction. I support the study at this point 
because I think it will get us to where we need to go.
    Obviously, one of the difficulties whenever you have 
substance abuse offenders is that it is one thing to say we 
shouldn't do anything about them. That is OK if they are not in 
your neighborhood. That is always the difficult part. If you 
live in Southeast Washington, you don't want to look out your 
window and see people selling drugs or see people using drugs. 
You don't want your children to see it. So that is the 
difficult part that we are trying to work out.
    The study has a certain predictive power to it about 
looking at offenders, looking at their history, what they 
originally were arrested for, what programs they used while 
they were in the institution. The salient factor score was 
developed over time for the Federal population.
    Ms. Norton. Not for the D.C. population?
    Mr. Fulwood. Yes, it didn't have anything to do with the 
D.C. population. So now we are looking at how to better manage 
it.
    Ms. Norton. Do you think that you should be using or out of 
this study will be using new guidance for predicting how 
whether people should be on the street or not?
    Mr. Fulwood. I think it will help us because it assesses 
risk. It looks at low level offenders and medium level 
offenders. It looks at categories of what the offenses are and 
what the response ought to be. The response of the attorney 
from the PDS talked about the fact that we were giving people 
the 12 month hit almost automatically. That is not the way it 
should be.
    Ms. Norton. That is because of the salient factor score and 
guidelines?
    Mr. Fulwood. Absolutely.
    Ms. Norton. So that is a kind of uniform approach to public 
safety that results in a lack of public safety. There have to 
be some differences among these people. That is what I talk 
about as a layman with high risk, etc. When you know that 
somebody is not a violent offender, if we used a more 
scientific scoring they could be at higher risk than somebody 
who has been in jail for 20 years and has come out now, for 
example. So I am very concerned that you move toward the best 
practices and the best data, the best information.
    I know under your new leadership that you have been very 
concerned about this salient factor notion.
    Here I make a point. This Commission is in the throes of a 
huge transformation. What the U.S. Government did was to first 
say you were going to go out of existence because Federal 
parole was abolished. Then Congress in its wisdom decided that 
if we are taking public safety responsibilities from the 
District of Columbia for fiscal reasons, we have to have 
someone to supervise. So it created CSOSA for the first time 
and it gave new life to the Parole Commission.
    When I ask the chairman about the salient factor score, I 
am asking about the old system before Federal parole was 
abolished. My grandfather's system is what I am asking about.
    What we are asking particularly the Commission and 
certainly CSOSA, who must work in league with this, and again 
your partners like the Public Defender Service is to transform 
a Federal agency, which will continue to be a Federal agency, 
into essentially a local parole agency. There is no parole. I 
understand that. You are not local. You are answerable to 
Congress and not directly to the District of Columbia. This is 
unheard of in the history of the United States. We do not give 
local functions to a Federal agency. That is what we are asking 
you to do. That is why, Chief Fulwood, that is always the 
superior title as far as I am concerned, Chairman Fulwood, I am 
always cognizant of the fact that we are not asking you to 
simply make this thing better. We are simply asking you to turn 
it on its head.
    The greatest frustration of this subcommittee is seeing how 
little a Federal agency can automatically be adapted to the new 
role you have been given. For example, the Bureau of Prisons, 
which also got this new responsibility, as bad as prisons are, 
this is the best one in the United States and in the whole 
world. For me to say that about a prison is to talk from how 
bad, perhaps, others are. But I must say that this Bureau of 
Prisons has been responsive to us. All we had to do was hold a 
hearing and we got a state-of-the-art drug program open to 
District residents. We got a new facility built at Rivers. We 
did that without a law, without a change. We did it with 
oversight. When we were in the minority there was no oversight 
of this D.C. matter.
    But I am interested in those at risk first and how often in 
this country we ignore risk in providing for remedy. Now, there 
is data from the Justice Department on people with mental 
illnesses who may not appear as the people who are at highest 
risk, they haven't committed, for example, a violent crime, but 
here I am quoting from the U.S. Department of Justice National 
Institute of Corrections MacArthur Foundation study, ``People 
with mental illnesses, most of whom have co-concurring 
substance abuse disorders and face significant clinical, legal, 
and socioeconomic challenges are twice as likely as people 
without mental illness to have their community supervision 
revoked.''
    Knowing just that bit of information, it seems to me that 
they almost surely would go to the front of the line in need 
for supervision and perhaps in need for something to keep them 
from going over the top since they are more likely than others. 
Can I ask you how they would rate, CSOSA, in your risk 
categories? Thirteen percent of the offenders under your 
supervision are in this category. Whether they are high risk or 
not, their mental illness and substance abuse apparently puts 
them at some risk of failing probation.
    Ms. Poteat. Congresswoman, yes, they are a risk. But we 
treat this population a little differently because we recognize 
the fact that they sometimes are dually diagnosed not only with 
the mental illness but with the substance abuse. Therefore one 
of the things that we did do was to create additional teams to 
supervise this population. They have lower caseload ratios and 
offer more treatment.
    Ms. Norton. But now this re-offending in the sense that 
they lose their probation status, does that occur in the 
District twice as often? That study, I believe was a national 
study.
    Ms. Poteat. I am sorry?
    Ms. Norton. For the loss of their probation status, they 
are ``twice as likely as people without mental illnesses to 
have their community supervision revoked.'' That was from a 
national study, I believe. Does that occur in the District of 
Columbia today? These people who have mental disorders 
coexisting with their other problems, are these people twice as 
likely? Do you know, Ms. Hankins? Are these people twice as 
likely to fail probation?
    Ms. Hankins. I am unfamiliar with that specific study.
    Ms. Norton. I am just interested in the District of 
Columbia experience.
    Ms. Hankins. I understand from talking to advocates and 
from talking to my colleagues that many of our clients do have 
mental health issues and could use increased support and 
assistance in being successful on parole and supervised 
release.
    Ms. Norton. This data may not be available. I am asking 
this off the top of my head. I was interested in this study. I 
wish you would get to this committee within 30 days the number 
of offenders who have diagnosed mental illnesses, perhaps with 
other undiagnosed conditions. The study says most have 
undiagnosed conditions. Somebody has said that they have a 
mental illness of some kind. If they have been in the BOP, I 
think those diagnoses are reliable.
    I would like to see what happens with those people because 
I don't know where they would fall on anybody's list of violent 
or nonviolent. All I know is that this national study disturbs 
me. I am very pleased to hear you say that they do get 
increased supervision and the rest. I would just like to know 
what the outcomes are for that very high risk group.
    Mr. Horn, your testimony seems to say that New York City 
has given special attention to such offenders. Is that true? 
You, of course, have just the kind of background we would look 
to. You have been commissioner of the New York City Department 
of Probation. You have been the commissioner of the New York 
City Department of Corrections. You are deeply in touch with 
New York's parole restoration work. I had understood that New 
York paid special attention to these parolees with very special 
needs. I wonder if you think that could be used, for example, 
in a system of the kind you have heard testimony about today?
    Mr. Horn. Let me say a couple of things. I have been 
listening to the conversation. I want to make an observation. I 
think it is a mistake to assume that there is necessarily a 
relationship between mental illness and dangerousness and 
violence.
    Ms. Norton. Well, this study says twice as likely, not to 
dangerousness.
    Mr. Horn. Twice as likely to fail under supervision.
    Ms. Norton. That is the point.
    Mr. Horn. That is right. In my experience, many of the 
people in prison and jail who are diagnosed with a mental 
illness are as likely to be diagnosed with depression and 
anxiety as with some form of a psychosis that leads to 
violence.
    Ms. Norton. No, I believe that they include mental 
conditions and not just psychosis.
    Mr. Horn. Yes. What we have found, for example, is that 
many of these individuals fail because their mental illness may 
cause them to use illegal drugs as a substitute for legal 
medications, either because they cannot get access to the 
necessary psychotropic medications or because the side effects 
of those psychotropic medications are unpleasant. They choose 
to self medicate and so that is why you see this high incidence 
of co-occurring disorders, if you will.
    Ms. Norton. They self medicate why?
    Mr. Horn. Their mental illness causes them discomfort, 
whether it is hallucinations, voices, or whatever or simply 
depression or anxiety. They can relieve it by using cocaine or 
heroin or alcohol or marijuana, which are more pleasurable, if 
you will, than some of the very powerful psychotropic legal 
pharmaceuticals.
    The other thing that we have found is that there is a very 
high correlation between individuals who are mentally ill and 
individuals who are both homeless and in and out of jail. 
Oftentimes we refer to them as street users. We found that 10 
percent of our jail population of New York City, for example, 
had over a 5-year period been both in jail for times and in 
homeless shelters four times in that 5 year period.
    Ms. Norton. Were you able to get people with mental 
conditions to use their pharmaceuticals?
    Mr. Horn. Well, there are several challenges. The first is 
we have to make sure that there is a way of paying for their 
access to that treatment in the community. That means making 
sure they are eligible for Medicaid.
    Ms. Norton. Aren't they almost surely eligible?
    Mr. Horn. They probably are. But many of them may have lost 
their eligibility while in prison because they failed to 
register or because Federal law requires that their Medicaid be 
suspended while they are incarcerated. Oftentimes we don't do a 
good job re-enrolling them.
    Ms. Norton. Do we re-enroll them in the District of 
Columbia for Medicaid?
    Ms. Poteat. In CSOSA, the health teams work with the 
offenders in possibly getting these people re-enrolled in 
Medicaid.
    Ms. Norton. Go ahead, Mr. Horn.
    Mr. Horn. The other thing is they need assistance with 
housing and they need intensive case management. What we have 
done in New York is what we call intensive case management, 
that is workers who work exclusively with the mentally ill 
offender in caseloads of no more than 10 clients in the 
community. The other thing we have done is we have given them 
priority for subsidized housing. And we have found a way, both 
using Medicaid as well as private foundation funds, to give 
them wraparound services.
    They require a great deal of support in the community 
following release. You cannot deal with them the way you would 
deal with the average non-mentally ill offender and expect them 
to succeed. They require a great deal of important attention.
    Ms. Norton. Let me go to Ms. Poteat, then, because that is 
important to note in light of your testimony. I must say, it is 
perplexing to me that the secure residential treatment program 
is only available to male parolees and supervisees. I have to 
ask, considering that drug abuse is two thirds of those under 
your supervision and I can't believe that all of those are men, 
why is this program available only to men?
    Ms. Poteat. Well, with the CTF program we had initially 
designed, we were going to have a women's unit. However, during 
the stages we determined and found that we had an increasing 
population of co-occurring mental health problems so we elected 
to open another unit of mental health.
    Ms. Norton. Yes, but only for men?
    Ms. Poteat. For men. However, with the new pilot program at 
the CTF, even though it is a pilot for 32 men, we are in 
negotiations with CTF and the Department of Corrections to open 
a women's unit when we go full blown.
    Ms. Norton. CTF?
    Ms. Poteat. The Correctional Treatment Facility. That is 
the pilot program we just started. We will have a women's unit 
and they are endorsing a women's unit.
    Ms. Norton. Let me tell you, Ms. Poteat, you have been in 
violation of Federal law. I don't care what the reason was. 
From the time that they are children, girls offend less often. 
It is too easy to overlook them. Yet the harm done to women may 
be far greater since no matter what you are talking about, a 
woman who wants to get back her children is most likely to get 
them back, if at all possible, when she is released. It is 
simply a violation of Federal law to have a unit paid for by 
the U.S. Government that excludes women.
    In 30 days, this committee and the chairman need a plan. 
Yes, I understand you are talking. I want a plan that would be 
implemented beginning this fiscal year which begins October 
1st. This Member of Congress has worked very hard to get CSOSA 
money. I would like a plan within 30 days. I would like a plan 
that will, remember you get your new funds on October 1st, 
begin its implementation no later than January 1st to pull you 
out of violation of Federal law, not to mention out of 
bypassing women who may be in need of treatment.
    I think frankly that there will be far fewer. It would have 
taken nothing to set aside a few places for women. That needs 
to be done right away.
    Let me quickly go on. I am very concerned to hear about the 
detention for 2 to 4 months for the parole revocation hearings. 
I want elaboration on that. Does D.C. pay for the time that 
they are held in the D.C. jail? Does the D.C. government pay 
for that?
    Mr. Fulwood. The D.C. Department of Corrections, yes.
    Ms. Norton. Well, these people have had their parole 
revoked by Federal agencies. That is something we have to do 
something about. The whole point of transferring these 
responsibilities to the U.S. Parole Commission and creating 
CSOSA is to take all the responsibility for public safety, for 
detaining and maintaining them, from the D.C. government. As 
far as I am concerned, this is a violation of Revitalization 
Act. So what you do is to transfer to the District of Columbia 
essentially the responsibility, meaning that the District 
budget pays for detention for 2 to 4 months while you are 
waiting for parole revocation hearings at the jail and 
designation to the Bureau of Prisons. And BOP is also, of 
course, a Federal agency.
    Now, I think it is Ms. Hankins who testified that you have 
the discretion whether to hold them in jail or not. I certainly 
want to make sure that they are not simply let out of jail 
without the appropriate factors and circumstances being 
provided. But if you have the discretion, if these people are 
being held and have not yet gone back to BOP or been 
adjudicated back, what determines whether you are going to jail 
these offenders pending the final revocation or not? How do you 
determine? How do you make that difficult judgment? What 
percentage of your offenders are held as opposed to some other 
use of detention?
    Mr. Fulwood. If we determine that there is probable cause 
and the person goes over to the D.C. jail, they stay there 
until we have a hearing for revocation purposes. Then they are 
designated to the Bureau of Prisons to be transferred to a 
Bureau of Prisons facility.
    Ms. Norton. Suppose the person has been arrested for, let 
us say, a minor violation like driving without a license. That 
is very bad to do, but let us say that they are arrested and 
later found not guilty. Maybe they left it at home, for 
example. Is their parole or release revoked even if these 
charges are later dropped?
    Mr. Fulwood. It may be depending upon the totality of the 
circumstances.
    Let me get to what we need to do. What we need to do is to 
use a greater number of summons. That way the person is not 
incarcerated.
    Ms. Norton. How would that work?
    Mr. Fulwood. We are looking at it now.
    Ms. Norton. A summons as opposed to what?
    Mr. Fulwood. As opposed to an arrest warrant for minor 
offenses. With a greater use of summonses, the person wouldn't 
be over there at the jail. They wouldn't stay there for a long 
period of time. But we would still get the advantage of 
bringing them in to find out about their behavior.
    We are looking at it now as to a greater use summonses for 
the purposes of not incarcerating people. The PDS agrees with 
it. They have brought it to our attention also. But we have had 
this discussion about it.
    The second thing is that we talked about mental health. One 
of the problems that we have is that we don't utilize all of 
the support systems that are available in the community now. We 
just had Legal Services people that came up and talked about 
greater use of these services that are available in the 
community.
    Ms. Norton. Such as what, Chairman Fulwood?
    Mr. Fulwood. Referring them to doctors for treatment, 
looking at their crime and the relationship to their crime, 
looking at whether or not we can supervise them in the 
community, and putting them into halfway houses. There are a 
variety of things that you can do.
    Ms. Norton. Ms. Poteat, are your halfway houses full?
    Ms. Poteat. The halfway house determination is by the 
Bureau of Prisons. If there are beds available, then they 
determine----
    Ms. Norton. Do you know whether there are beds available at 
the moment?
    Ms. Poteat. At Hope Village? Yes, ma'am.
    Ms. Norton. Why are they not being used? Do you know?
    Ms. Poteat. No. We can't make the final determination of 
who they accept into the halfway house. The Bureau of Prisons 
does.
    Ms. Norton. Don't you ask them why they have empty beds at 
the halfway house? Would it help you therefore to get people 
back into the community? What do they tell you?
    Ms. Poteat. Yes, ma'am. In fact, sometimes we have to go 
back and ask them if they will reconsider some of the cases. We 
even have staff at the halfway houses that are there to work 
when the offenders transition out.
    Ms. Norton. Mr. Horn, did you have something to say on 
that?
    Mr. Horn. Yes. I have to get back to the city to teach a 
class tonight so I am going to have to run off, but I do want 
to make an observation. It is not uncommon for halfway houses 
to be reluctant to accept individuals with mental illness. They 
may not be equipped to deal with them.
    Ms. Norton. But she is saying accept them period, empty 
beds with or without mental illness.
    Mr. Horn. But it was following from the conversation you 
had with Chief Fulwood about the mentally ill.
    I wanted to draw your attention to a program in 
Philadelphia called First, which is run through the 
Pennsylvania Department of Corrections. It is a halfway house 
expressly for individuals with mental illness. I believe it has 
been replicated in Erie, PA as well. I would just commend it to 
the committee as a model that you may want to pursue.
    Ms. Norton. Well, it is something that in the next 
appropriations cycle I might want to suggest to the 
appropriators for CSOSA.
    But I am very concerned if there are halfway house beds 
that are not being filled. Those people are coming out of jail. 
It is not like CSOSA won't get them. There are beds that are 
not being filled. I don't know if it is for fiscal reasons or 
whether you know what the reasons are. I am asking staff to 
find out within 30 days from the Bureau of Prisons why we are 
not bringing more people through halfway houses if the beds are 
available.
    Mr. Fulwood. We know that evidence-based practice has shown 
that one of the things that helps people to be successful is 
for them to go to a halfway house.
    Ms. Norton. Chief, I remember that when we first got this 
responsibility, we showed huge declines in recidivism through 
the halfway house mechanism. Then there got to be the NIMBY 
notion and there got to be fewer and fewer funded. But what 
bothers me is the notion that there are empty beds. We will 
deal with the Bureau of Prisons if that is the case.
    Mr. Thorton, you asked the question about the elephant that 
isn't in the room. I have to say, the District of Columbia was 
not invited to this hearing because we couldn't pinpoint either 
the data or their work.
    Now, we are in touch with Empowerment. We commend the city 
for its work on Project Empowerment.
    But we are not sure that when the Federal Government took 
over imprisonment and parole whether or not that left the city 
feeling that there was not the kind of responsibility that they 
had before, indeed any responsibility, except that if people 
offend criminally or otherwise, if they are to use services 
they are going to be our services.
    I would like your view of what you think the city, facing 
huge problems with funding of programs for law-abiding 
citizens, what the city might do to be more helpful in this 
regard. Is it simply funding? Does the city pay attention but 
it simply doesn't have the funding? Remember that CSOSA has the 
major responsibility for supervision, not the city. As someone 
who brought up the city, I thought I ought to ask you what 
further the city should be doing so that I could speak with the 
Council and the mayor to see if new things might be possible 
from the city working with CSOSA and the Commission.
    Mr. Thorton. One thing is that there should be some type of 
strategy in place with the city.
    Ms. Norton. A local strategy quite apart from what the 
Federal agencies are doing?
    Mr. Thorton. Apart from CSOSA. It should be local.
    Ms. Norton. You don't see such a local strategy?
    Mr. Thorton. I don't see such a local strategy that exists.
    We brought up recovery and the role that recovery plays in 
successful reintegration. Right now, there are about five 
buildings that I am aware of where recovery meetings take place 
that are being closed down.
    Ms. Norton. What do you mean?
    Mr. Thorton. Recovery centers. Buildings where individuals 
go in for substance abuse meetings.
    Ms. Norton. Do you have to go into a city building in order 
for those meetings to take place?
    Mr. Thorton. Most of them take place in city buildings, 
churches, or others.
    Ms. Norton. Why should those be abolished or closed down? I 
can understand that they may not have the physical premises for 
it.
    Mr. Thorton. You brought up a good question. Why?
    Ms. Norton. You mean the programs are being abolished?
    Mr. Thorton. The specific buildings I am talking about, one 
is on 24th Place. Right now, there are 12 meetings that take 
place throughout the week in that particular building.
    I went through detoxification. When you go into treatment, 
one of the things you are told is to find NA meetings and AA 
meetings and places to go.
    This particular building I am talking about I believe is 
operated by APRA. The building is closing down so what happens 
is that now you have about 1,300 people who generally go there 
for meetings that have no place to go.
    Ms. Norton. This is very serious. Staff will be in touch 
with the city. The city is under tremendous pressure from the 
Great Recession, as we are now calling it. I can understand 
that programs have to be closed down, but AA is usually done 
without city help. In fact, it can't get any city help because 
it is a religiously based program. Many of these are done 
through churches and the rest. So I will speak with city 
officials to see what we can do to make sure that they work 
more closely, I think, probably with CSOSA to make sure that 
premises are at least available for meetings that are not 
government funded to continue to take place. That would be an 
important role for them to play.
    The Public Defender says that, this for you Chairman 
Fulwood, the Commission accepts the recommendations of the 
hearing officers almost always. What is the review process that 
the Commission engages in? What scrutiny results in so few 
reversals? I will ask Ms. Hankins, truthfully, too. By the time 
you get to this point, should we not expect, perhaps, few 
reversals?
    Mr. Fulwood. What happens is that when the hearing examiner 
goes to the facility and has a hearing, they do a summary 
report. They make a recommendation. Then there is what I call a 
peer review. A second examiner reviews the case and determines 
whether or not he agrees or disagrees with the finding. If he 
agrees, it will come upstairs to the Commission.
    Ms. Norton. So it has already, as it were, been appealed in 
a manner of speaking because you got a second person?
    Mr. Fulwood. Yes. There are times when there is a 
disagreement. Then there is a third review among the examiners. 
The supervisor examiners review the case until they get two 
people to agree on the recommendation. It subsequently comes 
upstairs. The first Commissioner reviews it. If he agrees with 
it, he signs off. If he doesn't agree with it and he puts in 
another recommendation that is different than the hearing 
examiners' recommendation, it then goes through a second 
Commissioner until you get two Commissioners who agree on the 
recommendation. There is a pretty good review.
    They are reversed.
    Ms. Norton. Ms. Hankins, you were concerned about this. You 
heard the chief say that there are multiple reviews before it 
even gets to the Commission level.
    Ms. Hankins. The 85 percent statistic may or may not be 
particularly impressive in comparison to, say, an appellate 
court review of trial judges. I don't know.
    What I thought was sort of more interesting was talking to 
my colleagues who do have now a lot of experience before the 
Parole Commission and have represented over 90 percent of 
parolees and supervisees at revocation hearings. If you win a 
hearing and either get a no finding where they are able to get 
the hearing examiner to find that there was no violation or get 
a finding that there is a violation but for some reason there 
is a mitigating factor that has been decided so that they have 
gone below the guidelines, I have asked my colleagues how often 
that is reversed. How often does an appeal improve what has 
happened at the examination?
    It is the 15 percent that pretty much always get decided 
against our clients that I think is the more stunning 
statistic, not necessarily the 85 percent affirmance. But when 
error is found----
    Ms. Norton. How much overturning occurs in appeals in 
Federal courts, for example? Isn't it rare indeed?
    Ms. Hankins. Not in my Office. We win reversals. It is 
certainly isn't the case that every time there is an error.
    Ms. Norton. Fifteen percent of the time?
    Ms. Hankins. No, I am sorry. It isn't the 85 percent and 
the 15 percent. It is of the 15 percent, which way does that 
go. What my colleagues are telling me is that it is close to 
100 percent of the 15 percent.
    Ms. Norton. By the time that they get to that many appeals, 
then I would have to ask you how much overturning would you 
expect to occur by that time?
    Ms. Hankins. How about at least one in the past decade? It 
has never happened. In fact, they always do it the other way. 
To sort of do it in terms of the prosecution and the defense, 
it is always the prosecution's way.
    Ms. Norton. Here is where we would like to get this 
straightened out. We want to find out what is new and what has 
been happening. Now, CSOSA works for a long time with an 
offender. The offender may go through a number of violations 
before it gets anywhere close to the Commission. Here I have 
been focusing and been interested in what happens when it gets 
to the Commission.
    I believe it was you, Ms. Poteat, who talked about kind of 
putting these two parts of the process together so that we know 
what kinds of sanctions are used at the CSOSA level and what 
kinds of sanctions are used when you get to the Commission 
level. Would you help us understand how you are putting 
together a new system that relies on sanctions to bring 
compliance before an offender offends repeatedly? I would call 
them graduated sanctions. Begin with CSOSA and graduate, if 
need be, to the Commission level so that we are talking about 
one system. I use the word sanction to mean that if improvement 
is not made you are on your way back to jail.
    How would graduated sanctions work? How are they working 
now? When Ms. Hankins says you would expect one in a decade to 
be overturned, you could say more than what common sense tells 
me. If you have gone through so many steps, maybe you wouldn't 
expect even one to be overturned. But I don't know because I 
don't know what the graduation is up to the point where you 
have a really serious appeal, I would say. By the time you get 
to the Commission, it ought to be a dead serious appeal and 
there should have been corrections that perhaps would have been 
made but for certain complexities in the situation.
    I need to know how this new system that we have been trying 
to understand and that Chief Fulwood has made some use of even 
at the Commission works. How you would knit that together with 
CSOSA, using sanctions up the way so that ultimately the 
offender with graduated sanctions would get to understand that 
he is deeply now in trouble and either change his behavior or 
head toward the ultimate sanction of being put back in jail?
    Ms. Poteat. All right. You talked about the graduated 
sanctions. Just let me give you a brief example. Oftentimes you 
start with the least type of sanction for the offender. It may 
be a verbal reprimand. Let us say an offender has positive 
urine and you continue to do verbal reprimand after verbal 
reprimand. You are really not addressing the problem. All the 
offender knows is that if they use drugs, the only thing that 
you are going to do is give them a verbal reprimand. This new 
sanction matrix will apply the appropriate sanction to the 
correct behavior.
    Ms. Norton. For example, how many verbal reprimands are you 
entitled to before you go to something else? Does an offender 
know that? Does he know that now?
    Ms. Poteat. No because sometimes it may depend on the 
particular CSO even though we have a graduated sanction matrix.
    Ms. Norton. Should it depend on the CSO? I understand that 
in the criminal justice system everything has some discretion.
    Ms. Poteat. Yes, it does.
    Ms. Norton. But if there is no rule to say there are X 
number of verbal reprimand before you get graduated to the next 
thing, I don't know why anybody should take it seriously. These 
are very smart people. Criminals aren't dumb. They have eluded 
capture and they have had some success in the criminal justice 
system. So I am looking for sanctions that work and that are 
predictable. If they are not predictable, then who cares?
    Ms. Poteat. That is what we intend to incorporate, 
sanctions that are predictable. But I also must say that as 
part of that, even though we may be applying the sanctions, it 
is up to the appropriate CSO to be able to enforce and relay 
that type of information to the offender.
    Ms. Norton. But that is up to you as management to make 
sure they are trained to do so.
    Ms. Poteat. That is correct.
    Ms. Norton. I am assuming that. If that is a problem, then 
we really have a problem.
    Ms. Poteat. It is not a problem. But we want to make sure, 
here again, that it is the appropriate sanction so that by the 
time it gets to the Commission they will be able to determine 
that we have exhausted everything conceivable.
    Ms. Norton. Just a moment. I am not looking for a proxy for 
sentencing guidelines here. I know that this terrible system 
that we are trying to get rid of. I don't want to see any 
version of it repeated in this system. But I think the chances 
for abuse by the staff are greater indeed when, in fact, there 
is not appropriate training on the one hand and when the 
offender does not predictably know that unless there is an 
extraordinary reason, X number of this or that is going to get 
you to the next sanction, not back to jail but to the next 
sanction.
    When would a system at least predictably forecast to the 
released resident, bearing in mind that there has to be 
appropriate discretion? When can we expect such a system matrix 
be in use from CSOSA up through and including the U.S. Parole 
Commission?
    Ms. Poteat. Congresswoman Norton, there is a system already 
in place. We are just only enhancing that system.
    Ms. Norton. Don't give me bureaucratic talk. I know there 
is a system and I compliment CSOSA on that system. But you 
cannot tell me today, or at least you haven't thus far told me, 
that someone who has had X number of reprimands knows he is on 
his way to the next part, what the next part would be, or that 
it is written down to tell him what the next part will be. I 
think part of the reason is this study that has just been 
commissioned would not enable you to predictably do that yet.
    The point is that by the time Ms. Hankins gets the case 
before the Commission, I don't know, you may represent people 
before CSOSA as well, she ought to be able to point to 
something that was in place that hadn't taken place. You ought 
to be able to say that the rule is that unless there are 
extraordinary circumstances, there are X number of reprimands 
and then you now go on.
    By the way, what would you go onto after a verbal 
reprimand?
    Ms. Poteat. It could be daily reporting into CSO's office. 
It could be GPS. It depends on the behavior and it depends on 
the violation.
    Ms. Norton. Are GPS and daily reporting at least as 
reliable as one another?
    Ms. Poteat. GPS is more controllable. We can monitor what 
the offender is doing or where they are going.
    Ms. Norton. Why would anybody have somebody come every day 
if GPS is more reliable?
    Ms. Poteat. Sometimes we have people, like if they are 
unemployed, come and they may go to the Daily Reporting Center. 
Therefore they would be seeing their CSO and they will be 
telling them exactly what they have done or where they have 
gone throughout the day.
    Ms. Norton. That works just as well as GPS?
    Ms. Poteat. It is a sanction that we utilize.
    Ms. Norton. I am asking the question, does it work as well 
as GPS?
    Ms. Poteat. It works but GPS is probably more controllable.
    Ms. Norton. I don't know. Maybe if somebody is unemployed 
you want to have somebody talk to them or something. But I am 
looking for a way to keep track of people.
    Did you want to say something, Ms. Hankins?
    Ms. Hankins. I did. I wanted to sort of talk about a 
slightly different type of case. It isn't quite the graduated 
sanctions model, although the questions that you are asking are 
precisely some of the arguments our attorneys might make.
    A hearing examiner might say I am not going to give you a 
12 month hit. I am going to reinstate you because your CSO 
maybe needs to help you find treatment or something like that. 
One of our concerns is that the final decision gets made and it 
is frequently, in the 15 percent where it is overturned, that 
we are going to go back to the 12 month hit. Forget that we 
were going to reinstate you or that we were only going to give 
you 4 months. We are going to take it back up to the 12 months. 
We don't know how that decision got made.
    But there is a slightly different sort of case. Take the 
example you gave earlier of driving without a license. There 
are sort of new offenses which aren't about graduated 
sanctions. Maybe a case was brought in the Superior Court and 
it was dismissed. Now there is an allegation of a violation for 
having committed a new offense but my colleagues are able to 
convince the hearing examiner that this allegation is 
unsubstantiated. But the final decision is that we disagree 
with the credibility finding of the hearing examiner who 
listens to that officer or to that civilian witness. We just 
disagree with it. That is probably legitimate in some cases. It 
just never goes the other way.
    Ms. Norton. Wait a minute. You are saying that the 
Commission overturns the fact-finder?
    Ms. Hankins. Yes. In 15 out of 100 cases, based on their 
estimate.
    Ms. Norton. Is that why you want written decisions?
    Ms. Hankins. Written decisions and some assurance that 
maybe they have at least listened to the tape as opposed to 
just read a one page summary that we haven't reviewed and so we 
don't know what they have based their decision on.
    Ms. Norton. Why haven't you reviewed the summary?
    Ms. Hankins. We don't get it. It isn't made public. It is 
given straight to the Commission and they make the final 
recommendation. So it isn't even really the appeal process. It 
is the final decision. After that we can make a FOIA request to 
then appeal a decision.
    Ms. Norton. Have you made FOIA requests?
    Ms. Hankins. We have made FOIA requests. It is not, 
however, an excuse or a justification for getting a continuance 
of the appeal process if we haven't gotten the summary in time.
    Ms. Norton. Chairman Fulwood.
    Mr. Fulwood. We sign reinstatements all the time where a 
person is restored to supervision when there are multiple 
allegations against them. We do listen to the tapes. I have 
personally listened to tapes. So that is not correct.
    What we need to do is to figure out how to do this stuff 
better. One of the things that we have done is that we just had 
Alinda Moyer up to the Commission to talk to the hearing 
examiners about her views on how we ought to review cases. We 
have just gotten from Alinda Moyer a judge who is doing 
teaching on how to evaluate credibility. He is going to come up 
and teach at the Commission. We know that we have to do this 
thing better.
    But most of the time when an offender comes before the 
Parole Commission, they have committed multiple violations. 
There have been graduated sanctions all along. What we find is 
that we have to find better ways to motivate people to not 
offend.
    If you look at the sanction program, Dr. Calvin Johnson who 
is sitting back here does some studies on it, when people come 
through the sanction program, they generally don't get locked 
back up. They don't. They don't re-offend. Not only do they not 
re-offend, but they don't test positive. The positive rate 
starts to decline because we have developed through CSOSA a 
case management plan, treatment modalities, and others to do 
this stuff better.
    This is an imperfect system because we are dealing with 
imperfect people. As we continue to reach out to folks to 
figure out how to do it better, we will do it better. There is 
no question in my mind.
    Ms. Norton. Chairman Fulwood, as I have said earlier, you 
are in the throes of recreating the Commission itself. That 
means looking at how the Commissioners make these decisions. If 
these graduated sanctions work in the new regime, it does seem 
to me that it will have an effect here.
    I am very concerned about having no basis. Even though that 
is not a violation of the Constitution not to know how 
decisions are made, I know as a lawyer I would always want to 
see what the basis is. I am not sure what it would mean in 
terms of workload. Chairman Fulwood.
    Mr. Fulwood. Can I give you another example? I had a 
sanction hearing. The person had no D.C. permit. That was his 
first violation. His second violation was that he had no D.C. 
permit. He had been arrested a second time. Not only that, he 
tested positive. But in the sanction hearing when we got 
together with CSOSA and we interviewed the guy, it was obvious 
that there were some mental illness problems. He had some 
cognitive deficits. So I called the police and asked why they 
locked this guy up. Don't you know that he doesn't understand 
this problem? The police took the ticket back.
    It is all these kinds of things that happen when you do 
this. This is where you have to do this kind of stuff.
    Ms. Norton. So the Commission level is when this problem 
gets straightened out?
    Mr. Fulwood. Yes.
    Ms. Norton. It should have been straightened out, 
obviously, long before that. It gets back to mental health, 
mental condition. Here, low cognition on the part of a 
releasee.
    Mr. Fulwood. There is one other thing. There is a young 
lady sitting behind us, and I am sorry, I apologize for not 
knowing her name, Gretchen, who came up and talked about 
wraparound services for people who are in the system that have 
mental illness problems and how we ought to utilize them more. 
We are getting ready to invite her up to talk about this whole 
thing of mental health. I just don't think that the system is 
designed to deal with people who have mental health problems. 
We ought not to be locking these folks up. That is just my 
personal view.
    Ms. Norton. We certainly ought not to be re-locking them up 
once they are out of prison.
    Could I ask you all, is it your impression that we are 
sending offenders back to jail for parole violations who have 
managed to get themselves a job?
    Ms. Hankins. Yes, we are sending them back.
    Ms. Norton. Have mercy. Shouldn't that be a factor? How 
often does that occur? If you have managed to hold a job, even 
though there is a violation, how large a factor does being 
employed weigh in whether or not to put you back in jail?
    Mr. Fulwood. It weighs pretty heavy from the Commission's 
standpoint. We look at whether or not the person is employed 
and whether or not they have a stable residence. We see that in 
the reports. We see the reports from CSOSA. They will note that 
this person has a stable residence that they have been living 
in for 2 years. They have been employed for 2 years. We should 
not lock them up; we should send them through the sanction 
program. So they come to the sanction program.
    Ms. Hankins. Yet many of them are locked up.
    Ms. Norton. Well, why are they locked up? You can have a 
job and rob people, too, Ms. Hankins.
    Ms. Hankins. Well, we have a number of clients who have 
jobs, who have stayed in contact with their community 
supervision officer, but who make some other mistake. Maybe 
they have tested positive for marijuana.
    Ms. Norton. Can you really say that somebody has tested 
positive, has a job, and that they are going to send them back 
to jail? Ms. Hankins, I have a hard time believing that.
    Ms. Hankins. They are detained and 4 months later, if they 
are reinstated, they probably have lost that job. Everyone is 
detained.
    Ms. Norton. Let us go back to that, Ms. Poteat and 
Commissioner Fulwood. Isn't that counterproductive? That a 
person is unlikely, is he not, to flee if he has managed to get 
a job? If you lock him up for 2 to 4 months, how is he going to 
retain that job? God knows, he may even not be sent back 
ultimately. Is he in danger of flight? Why must he be detained, 
I might add, at the expense of the District of Columbia at the 
D.C. jail?
    Ms. Poteat. I am sorry. As the chairman and I were talking, 
those types of offenders we try to recommend for the sanction 
hearings or the CTF project.
    Ms. Norton. Let me tell you what the discrepancy is here. 
The sanctions hearings have been done almost exclusively, have 
they not, Chief Fulwood, by yourself?
    Mr. Fulwood. Yes.
    Ms. Norton. Chief Fulwood was appointed at my request when 
I was in the minority as a Commissioner. He became the only 
Commissioner who would do sanctions hearings. So Ms. Hankins is 
left here with some people going through this process, the old 
process, because there is only one Chief Fulwood.
    The reason that having you all at the same table is 
important is because it says to the committee that we probably 
ought to have more people doing sanctions hearings rather than 
having the precious loss of a job through detaining a releasee. 
It seems counterproductive, going against CSOSA's and the 
Commission's own view that employment is the most important 
thing, perhaps, besides housing that you can have if you are 
released from jail.
    Mr. Fulwood. Look, I agree that employment is important and 
that we ought to do everything short of arresting somebody 
initially. The greater use of summonses would help to rectify 
some of that.
    As we look at what group of people we are going to use 
summonses for, we have to be careful that we don't disregard 
encouraging people to be successful or allow them to thwart the 
process so that they just will disregard what we are doing.
    We have had cases, and I am sure Ms. Hankins is aware of 
them, when guys tested positive 20 times. They didn't go to 
jail. We tried to put him in treatment. We put him in treatment 
and he walked away because there is no requirement that you 
stay there. The person can walk away. That is one reason why 
these secure residential treatment programs become an important 
part of the process. Even at the Sanctions Center, there are 
people that go in the Sanctions Center who walk away from the 
Sanctions Center and test positive while they are in the 
Sanctions Center.
    Ms. Norton. Chief Fulwood, on the basis of your testimony 
and the testimony of Ms. Hankins, I am going to ask the 
appropriators in the next appropriations cycle, by which time, 
of course, we will already have females in treatment in the 
District of Columbia, to let you to testify before them so that 
we can get enhanced appropriation for treatment that could keep 
somebody who has a job from finally just walking away because 
he is so addicted.
    Yes, Ms. Hankins? I only have one more question before I 
let this panel go.
    Ms. Hankins. This exchange has been amazing. I think it 
lends to fixing the salient factors. With employment, as 
shocking as it is that we might send someone back to jail who 
has a job, it happens. It happens all the time because having 
employment isn't a salient factor score. So it leads right in 
to how it is impossible for someone on parole or supervised 
release to get a perfect score, meaning that they get a 12 
month hit.
    Ms. Norton. I can't understand that. Even under the old 
Federal guidelines, the whole notion that having a job wouldn't 
be worth anything comes as a tremendous shock to me. It says to 
me that we should throw the whole thing out. If you have 
managed, even in the best of economies, to go to the front of 
the line against all of my constituents who are unemployed and 
law-abiding and gotten yourself a job, it shouldn't be possible 
that doesn't count for anything. I don't care whatever else the 
salient factors had to tell me. They have just told me 
everything that I need to know.
    I want to ask you to set a date on it. You know, Ms. Poteat 
and Commissioner Fulwood, that we will be waiting to see that 
go bye-bye very soon. I will ask you to tell me what is the 
soonest that can be implemented. Since the study has only 
recently come out, I will be asking you shortly to tell me how 
soon that can be.
    Let me ask a question about the last big injustice that 
caught my attention when this matter first came to our 
attention a few years ago. It is about street time, which 
required that the District of Columbia to adopt a new law. That 
struck me in the face. It said that District of Columbia 
residents have longer sentences than any inmates in the United 
States of America. I said, how can that be? It is a progressive 
jurisdiction. How did that happen? I come to find out that time 
spent on parole before revocation just didn't count.
    If you have been out clean and good for how many years and 
something terrible happened. I don't know what happened. Maybe 
the woman you had been with or your wife left you. I don't know 
what happened in your life. Maybe I won't even assume it is one 
of Ms. Hankins 15 percent, one of whom should have somehow got 
overturned. I am assuming that you had to go back.
    I understand that D.C. changed the law. They can at least 
keep their street time after revocation. Now, make me 
understand the following: It is for except when an offender is 
convicted of a felony or sometimes a misdemeanor while on 
parole and in situations where offenders do not ``respond to 
any reasonable request'' by the Parole Commission or CSOSA. 
That looks like a lot of discretion on the part of the 
Commissioner or even CSOSA when it comes to street time for 
misdemeanors. And it looks like you can't get it for a felony. 
I am not even sure how that decision was made but since it is a 
Home Rule decision I think it must have some meaning.
    How has this new law been implemented? It just passed in 
May of this year. Could you give me some examples?
    Mr. Fulwood. It became effective on May 20th.
    Ms. Norton. May 20, 2009.
    Mr. Fulwood. Yes, 2009. The implementing rules became 
effective June 17th. What the Good Time Credit Act did was to 
eliminate automatic revocation of street time. The new rule 
permits the Commission to do several things. One is early 
termination of supervision. If you have 5 years of good time, 
then we terminate your supervision so you are free to go. You 
haven't created any problems. We have looked at the record. We 
have a hearing.
    Ms. Norton. Even though ordinarily you would not be free to 
go?
    Mr. Fulwood. Right.
    Ms. Norton. That goes to putting more attention on the high 
risk people or the people with mental conditions?
    Mr. Fulwood. Yes. One of the impacts is that if you are a 
sex offender or somebody of that nature, you shouldn't be 
released from supervision.
    Ms. Norton. So you are the ones we need to look at. Go 
ahead, sir.
    Mr. Fulwood. Early termination was a good thing. As a 
matter of fact, when the law went into effect, the Public 
Defender Service had a conference about this whole issue. I had 
seven people approach me. Five of them got released from 
supervision immediately because the law had taken effect. They 
sent me a letter. I wrote a letter back.
    Ms. Norton. Were these people with misdemeanors where it is 
in your discretion?
    Mr. Fulwood. No, they had committed felonies in the 
original offense but they had 5 years of good time. They had to 
go so we released them from supervision. As you indicated, if 
it is a felony, then they lose their time if they commit a new 
offense. It is all about whether they commit a new offense. If 
they are certain kinds of misdemeanors, they will lose it.
    Ms. Norton. Like what? Give me examples.
    Mr. Fulwood. Domestic violence. Domestic violence is not 
always a felony. They may get an assault for domestic violence. 
That is a misdemeanor. We pay attention to domestic violence. 
We are not going to release them automatically but we have a 
hearing to make those determinations. You may not agree with 
the hearing, but we do have a hearing to try to sort through 
all of the facts and make an appropriate decision.
    Ms. Norton. Ms. Hankins.
    Ms. Hankins. With respect to new offenses, this is one area 
where it is a little different from how regular revocation 
works. My understanding is it requires a conviction in court. 
It isn't that a case can get dismissed in court. If there is a 
new conviction in court, that person is probably going to be 
sentenced on that anyway. So the question of whether they need 
to lose their street time on top of getting sentenced on a new 
offense and getting, perhaps, a sanction for the time that they 
still have, to lose their good time is a third punishment for 
the same offense.
    Ms. Norton. Wait a minute. You don't get sentenced for all 
misdemeanors.
    Ms. Hankins. I am sorry?
    Ms. Norton. You don't get sentenced for all misdemeanors.
    Ms. Hankins. It would strike me that if the offense is 
serious enough that someone should lose their good time for it, 
then they probably have gotten a sentence for it, whether 
misdemeanor or a felony.
    Ms. Norton. I know. What I worry about is that the Council, 
in its wisdom, did say misdemeanors.
    Ms. Hankins. If I could say, it actually wasn't the 
Council's wisdom. The bill that was proposed was a lot broader. 
It got essentially seriously cut back to mirror the Federal 
system because a little part of the Revitalization Act said 
that the District cannot change its own parole laws without the 
concurrence of the U.S. attorney general. So while the hearing 
before the Council was unbelievably moving, and I think 
absolutely the votes were there to pass a broader bill, we had 
a meeting with the Department of Justice and a number of the 
agencies in the Department of Justice. They said you are not 
getting that much and they were able to trump the Council. So 
it is not really fair to call it the Council's wisdom when it 
was the wisdom of the attorney general who trumped it.
    Mr. Fulwood. But they passed it.
    Ms. Norton. Wait a minute. They passed it.
    Ms. Hankins. They took the bird in the hand. It is true, 
they took the bird in the hand.
    Ms. Norton. Wait a minute. This law was passed in May of 
this year based on consultation with what Justice Department? 
The prior Justice Department or this Justice Department?
    Ms. Hankins. The prior Justice Department.
    I do want to say the authority for early release was the 
suggestion of the Parole Commission. It is a fantastic part of 
the law and we are so happy it is there.
    Ms. Norton. Now that we are in the throes of 
transformation, Chief Fulwood and Ms. Poteat, I am going to ask 
the new Justice Department to review this as well. If the 
District was caught having to get the existing Justice 
Department to agree to whatever it did, that is fair. Under 
administrative law, if there has been a change in the 
administrative agency, that can be reviewed. I am asking staff 
to have that matter reviewed by the Justice Department to see 
whether any changes might be allowable at least by the City 
Council, in which case we would so advise them.
    I thank each and every one of you for being here. We use 
these hearings for a purpose. We are trying to get something 
done, not just find out what you know. What you know has been 
exceedingly helpful to us.
    We understand that the subcommittee chairman has under his 
jurisdiction not only the District of Columbia but four bills 
on the floor that cover multiple jurisdictions of the 
subcommittee.
    I thank Chairman Lynch for calling this hearing and for 
allowing me to go on so long with questions that will help us 
as we try to help the Commission, CSOSA, and all who work with 
them to redesign the U.S. Parole Commission to fit the 
residents of the District of Columbia. Thank you very much.
    We will prepare for the next and final panel.
    Mr. Fulwood. Thank you for having us.
    Ms. Norton. Let me introduce the next panel. Mr. Samuel 
Green is on supervised release with CSOSA. Mr. James Parker, is 
also on supervised release. Mr. Parker is an employee of the 
District's Department of Public Works.
    I am going to ask Mr. Parker and Mr. Green or Mr. Green and 
Mr. Parker in whichever order you desire to testify.
    I want to thank you before you speak for being willing to 
come forward to assist this subcommittee and the U.S. Congress. 
This subcommittee tries, whenever possible and whenever 
appropriate, to hear from the agencies whose job it is to tell 
us what the agencies are trying to do and how successful they 
think they are. We heard from some agencies who are trying very 
diligently for us. But we can't get a true picture without 
talking to the clientele of the agency, the public that acts 
with the agency. That is why your testimony is as important to 
us this afternoon as the testimony you have just sat through to 
hear.
    May I hear from whoever wants to speak first? Would you 
identify yourself? Tell where you are employed and then tell 
something about yourself.

STATEMENTS OF JAMES PARKER, D.C. CODE OFFENDER UNDER USPC/CSOSA 
 JURISDICTION; AND SAMUEL GREEN, D.C. CODE OFFENDER UNDER USPC/
                       CSOSA JURISDICTION

                   STATEMENT OF JAMES PARKER

    Mr. Parker. Greetings. My name is James Parker and I am an 
ex-offender assigned under the supervision of CSOSA.
    I would like to first thank you, Congresswoman Norton, and 
your cohorts for allowing me to present.
    I had been charged with distribution of heroin in 2003. I 
did 26 months at Rivers Correctional. I got out in 2007 and I 
am still here.
    I was listening to everything that was going on and 
basically I can just give you my experience. Being on parole 
has been a pivotal part in my live, pivotal meaning that----
    Ms. Norton. What has been a pivotal part? I am sorry.
    Mr. Parker. Being on parole has been a pivotal part in my 
life, pivotal meaning that a lot has transpired in my life 
since being on parole. There was a death in my family with my 
daughter. There have been sanctions. A lot of different things 
have been going on.
    Being on parole has especially helped me keep from using 
excuses for the choices and actions I made in my life. My 
actions are more accounted for now and I owe my respect to 
being on parole. Having a parole officer has made my journey 
this time a more smooth transition back into society. We all 
have heard the stories of people coming out and not being able 
to maintain a normal lifestyle, whether it is from issues of 
unemployment, substance abuse, family matters, or daily 
interactions. I pride myself in sustaining from the jug juices 
and plan on keeping it that way forever.
    My transition has gone really well because of my parole 
officer. She has really heightened my ability to stay focused. 
I highly recommend this added supervision because we all fall 
short in our shortcomings.
    But you also know that there are still some things that I 
think need to be worked on as far as improving CSOSA and the 
things that are going on to help people be successful in 
society. I think it is very important that the--you have to 
excuse me. I am a little bit nervous.
    Ms. Norton. You are doing well. Just keep talking 
naturally.
    Mr. Parker. It is very important that your parole officer 
is really into you as an individual instead of it just being a 
job for her. Although being on parole and having a parole 
officer has many positives, I found that the program needs 
improvement. As for me, I was fortunate to have a good parole 
officer. But there are not as many as fortunate as me. Being a 
good parole officer should not just be a job for them but a 
mission to have these men and women get back on their feet 
after being incarcerated.
    I also think parole officers should be more optimistic in 
their mindset in dealing with parolees as they would want to be 
treated themselves. We are sometimes boxed in a negative notion 
that needs to be broken. A lot of us are striving to make a 
second chance in society worth it. We just want parole officers 
to treat us the way that they would want to be treated. This is 
not in my case. I am just speaking on some of the parolees that 
have talked to me and who wanted me to bring to your attention 
what is going on with them.
    I think some of the key points were made today about a lot 
of the things that I wanted to say.
    As far as being positive in society, it really has a lot to 
do with employment. A lot of parolees are getting out and they 
are finding it very hard to find jobs. Even though we all know 
about our economic structure--it is harder for just people 
without a felony to get a job, but with a felony, it is a 
little bit harder.
    Also, the housing situation for ex-offenders just getting 
out is terrible. When they get out, they might have to go to an 
environment where the people that they are going with are just 
as bad off as they are. Then you are putting them back into an 
environment where they really have a messed up choice. They are 
coming home to their home environment where there might be 
people on drugs and very high poverty. Then once they get into 
that environment, they might not come home to a house. There 
might not be a house there when they come home. So there is 
that.
    I just want to close. I want to thank you very much for 
having me here. I want to apologize for my nervousness. I 
haven't been around a big crowd and spoken in front of a big 
crowd. I just want to thank you all for having me.
    Ms. Norton. Thank you, Mr. Parker, for testimony that was 
full of information and experience that has enriched us.
    Mr. Samuel Green.

                   STATEMENT OF SAMUEL GREEN

    Mr. Green. Good afternoon. My name is Samuel Green.
    I would also like to thank Congresswoman Norton and your 
peers for giving us a forum to talk about community 
supervision.
    As you know, I am an ex-offender being supervised by CSOSA. 
In 2007, I was convicted for robbery and attempted robbery. I 
was sentenced to 22 months in prison. I served 19 months before 
being released into the community.
    As a 22 year old African American male living in 
Washington, DC, on supervised release, I have found that it is 
oftentimes difficult to make adjustments to reenter in society. 
The difficulties I found in employment, housing, and educated 
increased with the criminal record.
    However, through the assistance of CSOSA and my CSO I have 
been able to make pro-social changes such as remaining drug 
free, actively seeking employment, and being currently enrolled 
in the Sasha Bruce YouthBuild program.
    I want to say that my supervision hasn't been squeaky 
clean. I had drifted back into using drugs again, influenced by 
my environment. On occasion I have used illicit substances. 
When that happened, my first thoughts were that I would return 
to jail. But through sanctions I was able to stay on the 
street.
    I have had sanctions such as a verbal reprimand, a CSSO 
conference, GPS, and a USPS issued letter of reprimand.
    As a result of these sanctions, I have been in compliance 
with supervision with no positive urine. And, as I said 
earlier, I am involved in the Sasha Bruce Youth program.
    I would like to thank my community supervision officer for 
believing in me and CSOSA for providing me with an opportunity 
to succeed. Thank you.
    Ms. Norton. Thank you again as well, Mr. Green, for 
testimony that I have already found helpful even before we ask 
you any questions. Thank you again for your courage in coming 
forward.
    Now, you both were convicted of pretty serious felonies. 
Yet here you are in the hearing room of the U.S. Congress able 
to testify about your lives.
    I was interested, Mr. Parker, to hear Mr. Green talk about 
his sanctions. Did you ever have a CSOSA or the Parole 
Commission apply sanctions to you?
    Mr. Parker. Yes, ma'am.
    Ms. Norton. Mr. Green, did you see those sanctions as more 
and more of a warning and more and more serious restraints on 
your release?
    Mr. Green. Yes, ma'am.
    Ms. Norton. What made the sanctions finally work? Both of 
you have credited your supervisors. I must say it says a lot 
about CSOSA's staff that each of these young men have given 
great credit to those who supervised them. In the case of Mr. 
Parker, I have to ask him what the sanctions were. Mr. Green 
told us what his sanctions were. What made the sanctions 
finally hit home to you?
    Mr. Parker. I got tired of making excuses about doing this.
    Ms. Norton. What sanctions were applied?
    Mr. Parker. I had dirty urine.
    Ms. Norton. What did they then do to you?
    Mr. Parker. When they caught my dirty urine I was on what 
they call random. I took the urine out like once every 2 
months. So what they did was they brought it back to twice a 
week. They heightened it up. They brought it back to twice a 
week.
    Ms. Norton. That was helpful, wasn't it?
    Mr. Parker. Oh, was it. I work and I am married and now I 
have to come back in and go through all this stuff. It just 
made me realize how much of a fool I was and how far I had 
come.
    Ms. Norton. Because now you had this greater inconvenience.
    Mr. Parker. I had to come back twice a week.
    Ms. Norton. And you know that if you didn't come back this 
time----
    Mr. Parker. They already told me that if I didn't, if I had 
gotten another one, then they were going to put me into a GPS 
system. I was near enough 40. I will be 42 in 2 more weeks. I 
just couldn't even imagine somebody telling me what time to be 
in the house and knowing where I am going.
    Ms. Norton. So this graduation of sanctions so that they 
got more and more serious and more and more restrictive, that 
worked for you as well, then?
    Mr. Parker. Definitely.
    Ms. Norton. You both are employed?
    Mr. Parker. I am. I am with the Department of Public Works 
but it is seasonal. I start back at the end of October.
    Ms. Norton. How did you get the job, Mr. Parker?
    Mr. Parker. Through Project Empowerment, which is a 
terrific program.
    Ms. Norton. This is important because this is a completely 
D.C.-funded program.
    Mr. Parker. It is outstanding.
    Ms. Norton. And here we have the District on its own, quite 
apart from CSOSA. Of course, it has had this terrific burden 
taken off of it, but it is a city program with one of the 
highest unemployment rates in the country also trying to find 
employment. The city gave you a job in the city?
    Mr. Parker. Yes.
    Ms. Norton. We know that there are quite a substantial, 
significant number of city jobs that now go to those who have 
been released on parole. We will ask CSOSA to try to help us 
pinpoint that, though we commend the city for leading by 
example on that matter.
    You work for Sasha Bruce, Mr. Green?
    Mr. Green. Yes.
    Ms. Norton. What do you do?
    Mr. Green. It is a GED and you can achieve a trade there, 
job readiness.
    Ms. Norton. So you don't have a job. You go to that 
program?
    Mr. Green. Yes.
    Ms. Norton. Is that also a Project Empowerment program?
    Mr. Green. Kind of, yes. I would say yes.
    Ms. Norton. I am not sure who runs that program but it is 
important. Mr. Green does not have a job now. However, I 
suppose it is CSOSA that gives him credit for going to get his 
GED and for doing job readiness so that he is not on the street 
competing with people who have no record. He is out here trying 
to be ready to compete with people who have no record.
    Could I ask you, in your own opinion and leaving aside the 
excellent employees, Federal employees, who have guided you, 
which programs have been most supportive or effective for you? 
I mean programs you have been through like the parts of CSOSA 
or the Commission or any city program? Which has been most 
helpful to you?
    Mr. Parker. I think for me it would probably be the 
supervision at CSOSA.
    Ms. Norton. Really?
    Mr. Parker. Yes. I think that to really get myself back on 
track before I really go off the edge, it guided me to where I 
really need to be and got me totally focused on what I want to 
do in life. The job and stuff is good, don't get me wrong. It 
is seasonal. I have been there for 2 years. It is seasonal and 
it is good. But without me going in the right direction, who is 
to say I would have even been there as long as I have been or 
even right now. So I would have to go back to where it begins.
    Ms. Norton. How about you, Mr. Green?
    Mr. Green. For me, I say Sasha Bruce for the weekly 
meetings, giving me a sense of home court advantage, and just 
making me feel like a good way is a better way.
    Ms. Norton. What I think you demonstrated is that when 
people hear about people who have commited crimes, they assume 
we all start at the same starting line. How did you start life, 
Mr. Parker?
    Mr. Parker. I would say probably a dysfunctional family, my 
environment, wanting to fit in with the crowd.
    Ms. Norton. Where did you live, sir?
    Mr. Parker. Southeast. That is where I grew up.
    Ms. Norton. You were raised by a mother and a father?
    Mr. Parker. It was my mother, grandmother, uncle, whoever.
    Ms. Norton. Whoever is the important point here. That is 
the difference between your starting line and most people's. So 
the street got to help raise you.
    Mr. Parker. It raised me. It just took me until this point 
in my life to feel that drugs and getting high, there is so 
much more to life than that.
    Life is so beautiful when you are sober. It is so beautiful 
when you can go and take your urine and you don't have to worry 
about trying to find anything to take and drinking all this 
water. You can just go on in and just be comfortable. You are 
able to see your grandkids run and play and do little stuff 
with you being a part of their lives when you aren't all 
drugged out or don't want to be around them.
    All in all, being incarcerated for most of my life, just 
being able to see how beautiful life is is a major adjustment 
for me. That is what keeping me focused. That is what is 
keeping me to not even do drugs anymore or be a part of it. I 
am just thrilled with where I am at right now.
    Ms. Norton. Mr. Green, how did you start out in life?
    Mr. Green. Most of the same as him, trying to be cool.
    Ms. Norton. Were you raised by your mother and father?
    Mr. Green. Just my mother. I tried to live up to my father.
    Ms. Norton. What section of the city, Mr. Green?
    Mr. Green. Southeast. Like my father, he was in and out of 
jail all his life. He is in jail now, but that is another 
story. I was just trying to be cool. I just idolized the bad 
guys when I was little. Do you know what I am saying?
    Ms. Norton. Yes, I do know what you are saying, Mr. Green. 
[Laughter.]
    Mr. Green. My bad. That is all to my story.
    Ms. Norton. I ask you to tell those two painful stories 
because we are so inclined to be judgmental and to assume that 
here we all are and all we have to do is what I did. I had a 
mother and a father and grandmother and everyone else 
surrounding me. Changes in family life and in circumstances in 
big cities leave their issues. CSOSA and the Commission, not to 
mention the Bureau of Prisons, are left to deal with those 
issues.
    I just want to say as your Congresswoman who represents you 
that I am proud to represent you.
    Mr. Parker. We are proud of you for all you have done for 
us.
    Ms. Norton. Well, I had a whole lot more advantages in life 
just starting out with Coleman and Vela Holmes as parents. That 
was all the advantage that most people need. You start there 
and then life takes care of itself. It wasn't in the most 
crime-ridden part of the city either. So I have to judge you 
from where you started.
    You have been willing to come forward and tell us where you 
are now. But you didn't start with your life story. You could 
have said first, let me tell you about having no daddy and how 
my mama had to raise me by herself and growing up in Southeast. 
I had to bring that out of you because I want that on the 
record, too.
    You have been invited here as visible evidence of how 
society benefits from putting a little resources into you now 
that were not put into your early lives by your own families, 
perhaps, and certainly not until you got through the criminal 
justice system.
    Now, Mr. Parker, you are a tax-paying resident of the 
District of Columbia. Mr. Green, if you stay in that program 
where you are learning a trade and getting your GED, I look 
forward to your being a tax-payer. We are looking increasingly 
in the employment sector for people who have been through it 
and for whom a job means everything. That is why you will find 
that there will be people looking for you when this Great 
Recession is over.
    I appreciate that when we came looking for you, you were 
willing to step forward so that we would know what these 
services mean. You gave me ammunition to go before the 
Appropriations Committee to make sure that there are more of 
those services available to the District of Columbia, to CSOSA, 
to the U.S. Parole Commission, to the Public Defender Service, 
and to those who work in partnership with them. Thank you very 
much for coming forward.
    Thank you to all our witnesses. This hearing is adjourned.
    [Whereupon, at 4:45 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 54385.070

[GRAPHIC] [TIFF OMITTED] 54385.071

[GRAPHIC] [TIFF OMITTED] 54385.072

[GRAPHIC] [TIFF OMITTED] 54385.073

[GRAPHIC] [TIFF OMITTED] 54385.074

[GRAPHIC] [TIFF OMITTED] 54385.075

[GRAPHIC] [TIFF OMITTED] 54385.076

                                 <all>

</pre></body></html>
